No.
In the

Supreme Court of the United States
WATCHTOWER BIBLE AND TRACT
SOCIETY OF NEW YORK, INC.,
Petitioner,
v.
J. W., A MINOR, et al.,
Respondents.
On Petition for a Writ of Certiorari to the Court
of A ppeal of the State of California , Fourth
A ppellate District, Division Two

PETITION FOR A WRIT OF CERTIORARI
Paul D. Polidoro
Counsel of Record
Joel M. Taylor
Legal Department
Watchtower Bible and Tract
Society of New York, Inc.
100 Watchtower Drive
Patterson, NY 12563
(845) 306-1000
ppolidor@jw.org
Counsel for Petitioner
288149

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
For decades this Court has safeguarded the First
Amendment rights of freedom of religion, speech, and
press from state infringement. Jehovah’s Witnesses again
find their First Amendment rights under attack and again
seek protection.
Here, Petitioner Watchtower sought to protect
confidential, intra-faith communications among clergy
(elders) regarding Bible-based religious appointment
processes, some of which included congregants’ penitential
confessions and all of which impacted privacy rights of
non-parties. California targeted the faith of Jehovah’s
Witnesses and impermissibly intruded upon matters
of church governance, religious doctrine, and religious
practice when it ordered Watchtower to produce these
intra-faith communications. Without a trial, California
imposed on Watchtower an unprecedented theory of
liability for a congregant’s criminal conduct during nonchurch activity (a Saturday afternoon pool party at a
private home).
The questions presented are:
1.

Did California violate the First and Fourteenth
Amendments when it held the former national
offices of Jehovah’s Witnesses (Watchtower)
responsible for the criminal act of a congregant
during non-church activity?

2.

Did California violate the First and Fourteenth
Amendments when it ordered Watchtower to
produce intra-faith communications regarding

ii
Bible-based religious appointment processes and
thereafter punished Watchtower for protecting
the privacy rights of non-parties?
3.

Whether the Seventh Amendment’s guarantee of
the right of trial by jury is incorporated against
the States under the Fourteenth Amendment?

iii
PARTIES TO THE PROCEEDING
Watchtower Bible and Tract Society of New York,
Inc., is the sole petitioner. Watchtower was the defendantappellant in the California Court of Appeal. Three
other legal entities (Mountain View Congregation of
Jehovah’s Witnesses, Murrieta, California; French
Valley Congregation of Jehovah’s Witnesses, Murrieta,
California, Inc.; and Christian Congregation of Jehovah’s
Witnesses) were defendants in the trial court but Plaintiff
dismissed them. Plaintiff is identified by the pseudonym
J.W. and was represented by her father as Guardian Ad
Litem.

iv
CORPORATE DISCLOSURE STATEMENT
Watchtower Bible and Tract Society of New York, Inc.
is a 501(c)(3) non-profit corporation organized under the
laws of the State of New York with offices in Patterson,
New York. Its primary purpose is religious, and its
primary goal is and has been to support the religious
activities of Jehovah’s Witnesses in the United States.
Watchtower was the national office formerly involved
in the affairs of the congregations prior to March 2001
(“former national office”). It has no parent corporation
and no publicly held corporation owns 10 percent or more
of its stock.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . x
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 6
I.

California violated the First and Fourteenth
Amendments when it expanded tort concepts
to include liability for the criminal act of a
congregant during non-church activity . . . . . . . . 7

vi
Table of Contents
Page
A. The First Amendment forbids civil
courts from interfering with matters
of church structure and governance  . . . . . . 7
1.

High state and federal circuit
courts are hopelessly divided on
whether the First Amendment
proscribes third-party tort claims
against a church for negligent
hiring/retention of clergy . . . . . . . . . . . . 9

2. California’s analytical gymnastics
in ascribing clergy status to a mere
congregant was predicated upon
conflation of separate entities and
attenuated factors that burden
religion . . . . . . . . . . . . . . . . . . . . . . . . . . 11
a. C a l i f o r n i a ’s c o n f l a t i o n
of lega l entities used by
Jehovah’s Witnesses violated
the Establishment Clause . . . . . . . 12
b. California’s shocking expansion
of negligent hiring/retention to
include former clergy places a
burden on religion in violation
of the Free Exercise Clause . . . . . 13

vii
Table of Contents
Page
B. Ca l i for nia’s shock i ng ex pansion
of negl igent h i r i ng /ret ent ion
creat es d rastic publ ic pol icy
considerations that will reverberate
through religious, charitable, and
business communities  . . . . . . . . . . . . . . . . . 14
II. California violated the First and Fourteenth
Amendments when it ordered production
of nationwide communications that were
wholly unrelated to Plaintiff ’s claims
and then punished Watchtower w ith
terminating sanctions and judgment using a
constitutionally infirm theory of liability  . . . . . 15
A. Ca l i for n i a r ef u sed t o pr e ser ve
confidentiality for the communications
between Jehovah’s Witnesses and their
spiritual counselors  . . . . . . . . . . . . . . . . . . . 16
B. Ca l i for n i a ref u sed t o pre ser ve
privacy rights for the communications
between Jehovah’s Witnesses and their
spiritual counselors  . . . . . . . . . . . . . . . . . . . 18
III. California violated due process when
it rewa rded mendacity and ref used
adjudication on the merits . . . . . . . . . . . . . . . . . . 19

viii
Table of Contents
Page
IV. To effectively ensure that citizens obtain
the liberties guaranteed under the Bill
of Rights, the Seventh A mendment
should be applicable to the states . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

ix
TABLE OF APPENDICES
Page
APPENDIX A — DENIAL OF PETITION IN
THE SUPREME COURT OF CALIFORNIA,
FILED MARCH 27, 2019 . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — DENIAL OF REHEARING
OF THE COURT OF A PPEA L ,
S TAT E OF CA LI FOR N I A , FOU RT H
DI S T R IC T, DI V I SION T WO, F I L ED
DECEMBER 31, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . 2a
A P P E N DI X C — O P I N ION OF T H E
COURT OF APPEAL OF THE STATE OF
CALIFORNIA, FOURTH A PPELLATE
DI S T R IC T, DI V I SION T WO, F I L ED
DECEMBER 10, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . 3a
APPENDIX D — TRIAL COURT JUDGMENT
IN T HE SU PERIOR COU RT OF
CALIFORNIA, COUNTY OF RIVERSIDE,
FILED JULY 15, 2016  . . . . . . . . . . . . . . . . . . . . . . . 52a
A PPENDI X E — J U DGMENT OF THE
SUPERIOR COURT OF CALIFORNIA,
C OU N T Y OF R I V ER S I DE , DA T E D
FEBRUARY 2, 2015  . . . . . . . . . . . . . . . . . . . . . . . . . 55a
A ppendix f — LET T ER FROM THE
CH RI S T I A N C ONGR EG AT ION OF
JEHOVAH’S WITNESSES . . . . . . . . . . . . . . . . . . . 58a

x
TABLE OF CITED AUTHORITIES
Page
Cases
Aguilar v. Felton,
473 U.S. 402 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Ayon v. Gourley,
47 F. Supp. 2d 1246 (D. Colo. 1998), aff’d on
other grounds, 185 F.3d 873 (10th Cir. 1999) . . . . . . 10
Barron v. Mayor & City Council of Baltimore,
32 U.S. 243 (1833) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Byrd v. Faber,
565 N.E.2d 584 (Ohio 1991)  . . . . . . . . . . . . . . . . . . . . 11
Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah,
508 U.S. 520 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Cragin v. Lovell,
109 U.S. 194 (1883)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Dausch v. Rykse,
52 F.3d 1425 (7th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 9
Doe v. Hartz,
970 F. Supp. 1375 (N.D. Iowa 1997), rev’d in
part, vacated in part on other grounds,
134 F.3d 1339 (8th Cir. 1998) . . . . . . . . . . . . . . . . . . . 10

xi
Cited Authorities
Page
Doe v. Norwich Roman Catholic Diocesan Corp.,
268 F. Supp. 2d 139 (D. Conn. 2003) . . . . . . . . . . . . . 10
Ehrens v. Lutheran Church-Mo. Synod,
269 F. Supp. 2d 328 (S.D.N.Y. 2003) . . . . . . . . . . . . . 10
Erdman v. Chapel Hill Presbyterian Church,
286 P.3d 357 (Wash. 2012)  . . . . . . . . . . . . . . . . . . . . . 10
Gibson v. Brewer,
952 S.W.2d 239 (Mo. 1997) . . . . . . . . . . . . . . . . . . . . . 10
Gonzalez v.
Roman Catholic Archbishop of Manila,
280 U.S. 1 (1929) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Hosanna–Tabor Evangelical Lutheran Church
and School v. EEOC,
565 U.S. 171 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
Ins. Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee,
456 U.S. 694 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Isely v. Capuchin Province,
880 F. Supp. 1138 (E.D. Mich. 1995) . . . . . . . . . . . . . 10
Jane Doe v. Corp. of President of Church of Jesus
Christ of Latter-Day Saints,
90 P.3d 1147 (Wash. Ct. App. 2004) . . . . . . . . . . . . . .  17

xii
Cited Authorities
Page
Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am.,
344 U.S. 94 (1952) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Lewis v. Lynn,
236 F.3d 766 (5th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 21
Livingston v. Moore,
32 U.S. 469 (1833)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
MacDonald v. Grace Church Seattle,
No. C05-0747C, 2006 WL 1009283
(W.D. Wash. Apr. 14, 2006) . . . . . . . . . . . . . . . . . . . . . 10
Malicki v. Doe,
814 So. 2d 347 (Fla. 2002) . . . . . . . . . . . . . . . . . . . . . . 11
Martinelli v.
Bridgeport Roman Catholic Diocesan Corp.,
196 F.3d 409 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . 9
McCollum v. Bd. of Educ.,
333 U.S. 203 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
McDonald v. Chicago,
561 U.S. 742 (2010)  . . . . . . . . . . . . . . . . . . . . . 22, 23, 24
Minneapolis & St. Louis R.R. Co. v. Bombolis,
241 U.S. 211 (1916) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

xiii
Cited Authorities
Page
Moses v. Diocese of Colorado,
863 P.2d 310 (Colo. 1993) . . . . . . . . . . . . . . . . . . . . . 10-11
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Nutt v. Norwich Roman Catholic Diocese,
921 F. Supp. 66 (D. Conn. 1995) . . . . . . . . . . . . . . . . . 10
Olmstead v. United States,
277 U.S. 438 (1928) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Petruska v. Gannon Univ.,
462 F.3d 294 (3d Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . 9
Preece v. Covenant Presbyterian Church,
No. 8:13CV188, 2015 WL 1826231
(D. Neb. Apr. 22, 2015) . . . . . . . . . . . . . . . . . . . . . . . . 10
Pritzlaff v. Archdiocese of Milwaukee,
533 N.W.2d 302 (Wis. 1995) . . . . . . . . . . . . . . . . . . . . 10
Ramos v. Louisiana,
139 S. Ct. 1318 (Mem), No. 18-5924
(Mar. 18, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Redwing v.
Catholic Bishop for Diocese of Memphis,
363 S.W.3d 436 (Tenn. 2012)  . . . . . . . . . . . . . . . . . . . 11

xiv
Cited Authorities
Page
Reutkemeier v. Nolte,
161 N.W. 290 (Iowa 1917)  . . . . . . . . . . . . . . . . . . . . . .  17
Roman Catholic Archbishop of Los Angeles v.
Superior Court,
131 Cal. App. 4th 417 (2005) . . . . . . . . . . . . . . . . . . . . 16
Roman Catholic Diocese of Jackson v. Morrison,
905 So.2d 1213 (Miss. 2005) . . . . . . . . . . . . . . . . . . . . 11
Sanders v. Casa View Baptist Church,
134 F.3d 331 (5th Cir. 1998) . . . . . . . . . . . . . . . . . . . . . 9
Schmidt v. Bishop,
779 F. Supp. 321 (S.D.N.Y. 1991) . . . . . . . . . . . . . . . . 10
Scott v. Hammock,
870 P.2d 947 (Utah 1994)  . . . . . . . . . . . . . . . . . . . . . .  17
Serbian Eastern Orthodox Diocese for United
States and Canada v. Milivojevich,
426 U.S. 696 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Smith v. O’Connell,
986 F. Supp. 73 (D.R.I. 1997) . . . . . . . . . . . . . . . . . . . 10
State Farm Mut. Auto. Ins. Co. v. Campbell,
538 U.S. 408 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
State v. MacKinnon,
957 P.2d 23 (Mont. 1988) . . . . . . . . . . . . . . . . . . . . . . .  17

xv
Cited Authorities
Page
Swanson v. Roman Catholic Bishop of Portland,
692 A.2d 441 (Me. 1997) . . . . . . . . . . . . . . . . . . . . . . . 10
Timbs v. Indiana,
139 S. Ct. 682 (2019) . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Trammel v. United States,
445 U.S. 40 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Wilson v. Volkswagen of America, Inc.,
561 F.2d 494 (4th Cir. 1977) . . . . . . . . . . . . . . . . . 19, 20
Statutes and Other Authorities
U.S. Const., amend. I . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const., amend. II . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
U.S. Const., amend. VII . . . . . . . . . . . . . . . . . . . . . 2, 21, 22
U.S. Const., amend. VIII . . . . . . . . . . . . . . . . . . . . . . . . . 23
U.S. Const., amend. XIV . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. §§ 1320d to 1320d-8 . . . . . . . . . . . . . . . . . . . . .18
3 J. Story, Commentaries on the Constitution
of the United States, § 1762 (1833) . . . . . . . . . . . . . . 22

xvi
Cited Authorities
Page
3 William Blackstone Commentaries 350 . . . . . . . . . . . 22
Cal. Evid. Code § 1034 . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Cal. Civ. Proc. Code § 2031.310(i) . . . . . . . . . . . . . . . . . . 20
Fed. R. Civ. P. 37(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

1
PETITION FOR WRIT OF CERTIORARI
Watchtower Bible and Tract Society of New York, Inc.,
Petitioner, respectfully petitions for a writ of certiorari to
review California’s judgment in this case.
OPINIONS BELOW
The December 10, 2018, Opinion of the Fourth
Appellate District for the Court of Appeal of the State
of California is published at 29 Cal.App.5th 1142 and
reproduced at App. C, 3a-51a. The Court of Appeal’s Order
of December 31, 2018, denying petitioner’s Petition for
Rehearing was not published, and it is reproduced at App.
B, 2a. The Supreme Court of California’s Order of March
27, 2019, denying petitioner’s Petition for Review and
request for an order directing de-publication of the Court
of Appeal’s Opinion (Case No. S253669) is not reported,
and it is reproduced at App. A, 1a. The relevant orders of
the California Superior Court are unreported, and those
orders are reproduced at App. D, 52a-App. E, 57a.
STATEMENT OF JURISDICTION
The order of the Supreme Court of California was
filed March 27, 2019. This Court has jurisdiction under
28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment to the Constitution of the
United States provides, in relevant part: “Congress shall
make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the
freedom of speech[.]”

2
The Seventh Amendment to the Constitution of
the United States provides in relevant part: “In Suits
at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved[.]”
The Fourteenth Amendment to the Constitution of the
United States provides, in relevant part: “No State shall
make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.”
STATEMENT OF THE CASE
This case involves a congregant who abused the child
of a co-congregant in a family swimming pool during a
private, non-church-related party in Southern California,
resulting in a multi-million dollar judgment against
Watchtower without a trial. Why was Watchtower punished
by the California courts? Because it conscientiously
refused to break the confidentiality of confession and
violate the privacy rights of individuals not involved
in this case by producing intra-faith communications
among clergy (elders) regarding Bible-based religious
appointment processes.
Jehovah’s Witnesses abhor child abuse. It is a serious
sin. It is a horrible crime. Watchtower and Jehovah’s
Witnesses care deeply about all victims of child abuse,
including this Plaintiff who may continue to long suffer
the effects of this horrendous crime. But the fault in this

3
case lies solely with the perpetrator, Gilbert Simental,
not with Watchtower.
Watchtower had no notice that Simental posed a
danger to children, and Plaintiff offered no evidence to
the contrary. (Record 2464-2465)1 Moreover, some five
years prior to the abuse, Watchtower was no longer the
national office involved in the affairs of congregations
of Jehovah’s Witnesses in the United States. As of 2001,
Christian Congregation of Jehovah’s Witnesses (CCJW), a
corporation Plaintiff voluntarily dismissed, was the entity
involved in the affairs of congregations. (App. SA, 1-5)
Seven years after the crime, Plaintiff sued Watchtower,
CCJ W, Mountain View Congregation of Jehovah’s
Witnesses (Mountain View Congregation), and French
Valley Congregation of Jehovah’s Witnesses (French
Valley Congregation). (Record 0155-0175) Watchtower
had no contractual, legal, or financial relationships with
French Valley Congregation or with Mountain View
Congregation (the congregation with which Plaintiff and
Simental worshiped). Watchtower’s principal activities
include providing religious office and residential facilities
(primarily in New York), and printing and publishing
religious literature.
The First Amended Complaint alleged that on July
15, 2006, a pool party was held at the home of Gilbert
Simental. Plaintiff states that Simental wrongly touched
her while she was in the pool with other guests and
members of his family. Watchtower never owned the
1. “Record” refers to pages in Appellant’s Appendix on file
with the California Court of Appeal that are not reproduced in
the Appendix filed with this Court.

4
Simental residence. Simental was never an employee of
Watchtower. (Record 2471)
During the course of the court proceedings, Plaintiff
admitted that Simental was not an elder 2 in the
congregation at the time of the abuse. (Record 2398, 2404,
2413-2414, 4998, 5055) Despite knowing that Simental was
simply a congregant at the time of abuse, the Complaint
asserted that he was an elder in an attempt to create some
form of organizational liability for the crime committed
at a private gathering wholly unrelated to congregation
(church) activities. Simental had previously served as
an elder in the Mountain View Congregation. But eight
months before Plaintiff ’s abuse he was terminated
(deleted) from his role as an elder (for reasons unrelated
to child abuse), and the congregation was informed by an
announcement that he no longer served as an elder. (App.
F, 58a; Record 2398, 2464)
The Scriptural qualifications for elders are set forth
at 1 Timothy 3:1-13; Titus 1:5-9; James 3:17, 18; and 1
Peter 5:2, 3 (e.g., they must be irreprehensible, sound in
mind, free from accusation, righteous, and self-controlled).
Accordingly, the January 1, 1997, issue of The Watchtower
contained an article entitled “Let Us Abhor What Is
Wicked” that provided religious direction to Jehovah’s
Witnesses regarding appointment processes. It explained
that those who engage in the sin of child abuse do not meet
the Scriptural qualifications to hold ecclesiastical positions
in the congregation.
2. Elders in the faith of Jehovah’s Witnesses meet Scriptural
qualifications and discharge Bible-based responsibilities such as
teaching, providing pastoral care, and set an example in spreading
the good news of God’s Kingdom, for which Jehovah’s Witnesses
are well known.

5
Thereafter, in March 1997, Watchtower undertook
ecclesiastical measures to ensure that all United
States congregations complied with this Scriptural
p o sit ion on e c cle si a st ic a l app oi nt ment s i n t he
congregation. It communicated with elders in over
10,000 congregations nationwide. (Record 0455-0457)
The intra-faith communications Watchtower received
from elders in response contained information protected
by the confidentiality of confession and sensitive, private
information regarding the spiritual health of congregants.
California ordered Watchtower to disclose these
nationwide responses. Watchtower complied with all orders
to produce all documents it had about the perpetrator.
However, Watchtower resisted disclosing intra-faith
communications wholly unrelated to this case because they
are confidential under the religious beliefs and practices
of Jehovah’s Witnesses. As a result, California issued
terminating sanctions against Watchtower.
Thereafter, Plaintiff voluntarily dismissed all other
defendants. (App. SA, 1-5; Record 4329, 4334). Prior to
the court entering judgment against Watchtower, Plaintiff
contradicted the Complaint and admitted that Simental
was not an elder (clergy) when he abused her. (Record
4998, 5026, 5048) Plaintiff’s theories of liability, negligent
hiring/retention, are predicated on his clergy position,
which did not exist. Knowing this, California nonetheless
affirmed a $4 million judgment against Watchtower.
Watchtower did nothing to shield Simental from
paying for his crimes. Unlike Watchtower, Simental had
a jury trial. He was convicted and remains in prison.
Plaintiff never sued him.

6
REASONS FOR GRANTING THE PETITION
California established a bewildering duty, applicable
all day every day, for the former national office of Jehovah’s
Witnesses located in New York (Watchtower), to supervise
in perpetuity all congregants, even in their own homes
and even when there is no prior notice that an individual
congregant poses a danger. No secular standard imposes
such an onerous duty. The burden California places
on religions to bear responsibility for criminal acts a
congregant commits during non-church activities cannot
be overstated. The remarkable and predictable result of
that ruling will have devastating policy implications for
all organizations. Simply put, the need for this Court’s
intervention is of critical importance.
In addition, courts throughout the United States
inconsistently apply the First Amendment’s protection
against tort claims for negligent hiring/retention of clergy.
Fundamental constitutional protections should not be
contingent on geography.
California went beyond this split of authority and
extended the theory of negligent hiring to a former
elder. It also intruded into the religious sphere by
examining matters of religious governance, destroying
the confidentiality of confession by compelling production
of intra-faith communications and eliminating the privacy
rights of citizens throughout the United States.
Rather than allowing Watchtower the opportunity to
adjudicate this case on its merits, California punished it.
The state valued a mendacious complaint more than the
United States Constitution.

7
I.

California violated the First and Fourteenth
Amendments when it expanded tort concepts to
include liability for the criminal act of a congregant
during non-church activity.

Federal circuit courts of appeals and the highest
courts of several states are split on whether the First
Amendment forbids tort liability f lowing from the
appointment/retention of clergy. California went one step
further by creating an unprecedented duty to supervise
a congregant at a Saturday afternoon, private pool party
at his home.
A.

The First Amendment forbids civil courts from
interfering with matters of church structure
and governance.

Wa t c ht o w e r d o e s n o t h e r e c h a l l e n g e t h e
constitutionality of claims governed by employment
law in a religious setting. Indeed, this Court addressed
wrongful termination in Hosanna–Tabor Evangelical
Lutheran Church and School v. EEOC, 565 U.S. 171
(2012) and concluded that there may be some justiciable
claims related to the employment of ministers. However,
even then:
[r]equiring a church to accept or retain an
unwanted minister, or punishing a church
for failing to do so, intrudes upon more than
a mere employment decision. Such action
interferes with the internal governance of the
church, depriving the church of control over the
selection of those who will personify its beliefs.

8
Id. at 188. This Court said in Gonzalez v. Roman
Catholic Archbishop of Manila, 280 U.S. 1, 16 (1929):
“[T]he appointment [to the chaplaincy] is a canonical
act.” In the present case, California applied employment
law to canonical acts and intruded into internal church
governance.
The First Amendment is premised on the notion that
“both religion and government can best work to achieve
their lofty aims if each is left free from the other within
its respective sphere.” Aguilar v. Felton, 473 U.S. 402,
410 (1985) (quoting McCollum v. Bd. of Educ., 333 U.S.
203, 212 (1948)). To that end, both Religion Clauses—the
Establishment Clause and the Free Exercise Clause—
work together to protect the autonomy of religious
organizations and avoid excessive entanglement of secular
and religious authorities. Based on these reinforcing First
Amendment protections, civil courts have long abstained
from interfering with the internal affairs of religious
organizations.
Despite an unbroken line of First Amendment
cases establishing and reaffirming religious autonomy,
California failed to accept what this Court has made
abundantly clear. The Constitution protects the “free
exercise of an ecclesiastical right, the Church’s choice of its
hierarchy.” Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am., 344 U.S. 94, 119 (1952).
Here, Simental was removed from church “hierarchy”
(ecclesiastical structure). Despite this ecclesiastical
decision, California held Watchtower responsible as
though Simental was still an elder, even though he was
not one at the time he abused Plaintiff.

9
1.

High state and federal circuit courts are
hopelessly divided on whether the First
Amendment proscribes third-party tort
claims against a church for negligent
hiring/retention of clergy.

California penalized Watchtower for a religious
appointment it did not even make by applying a theory of
negligent hiring/retention. In doing so, California added
another dimension to the existing split of authority among
the federal circuits and the states as to whether the First
Amendment bars such tort claims.
As to the spilt among the federal circuit courts of
appeal, the Third and Seventh Circuits have held that
the First Amendment bars negligent hiring/retention
claims against religious institutions. Petruska v. Gannon
Univ., 462 F.3d 294, 309 (3d Cir. 2006) (holding First
Amendment barred claims for civil conspiracy and
negligent supervision and retention); Dausch v. Rykse, 52
F.3d 1425, 1427-29 (7th Cir. 1994) (per curiam) (holding
First Amendment barred a claim brought by parishioner
for negligent hiring and supervision against pastor and
church for sexual contact that occurred during counseling
session, although other claims were permitted to proceed).
In contrast, the Second and Fifth Circuits have allowed
such tort claims thereby diminishing First Amendment
protections. Martinelli v. Bridgeport Roman Catholic
Diocesan Corp., 196 F.3d 409, 430-32 (2d Cir. 1999)
(holding First Amendment did not bar breach of fiduciary
duty claim brought by former parishioner against diocese);
Sanders v. Casa View Baptist Church, 134 F.3d 331, 33538 (5th Cir. 1998) (holding First Amendment did not bar

10
claims for malpractice and breach of fiduciary duty against
minister for having sexual relationship with plaintiffs as
part of marriage counseling).
This split of authority at the federal level has caused
disarray among the district courts. See e.g., Ehrens
v. Lutheran Church-Mo. Synod, 269 F. Supp. 2d 328
(S.D.N.Y. 2003); Ayon v. Gourley, 47 F. Supp. 2d 1246 (D.
Colo. 1998), aff’d on other grounds, 185 F.3d 873 (10th Cir.
1999); Isely v. Capuchin Province, 880 F. Supp. 1138 (E.D.
Mich. 1995); Schmidt v. Bishop, 779 F. Supp. 321 (S.D.N.Y.
1991); Doe v. Norwich Roman Catholic Diocesan Corp.,
268 F. Supp. 2d 139 (D. Conn. 2003); Smith v. O’Connell,
986 F. Supp. 73 (D.R.I. 1997); Doe v. Hartz, 970 F. Supp.
1375 (N.D. Iowa 1997), rev’d in part, vacated in part
on other grounds, 134 F.3d 1339 (8th Cir. 1998); Nutt v.
Norwich Roman Catholic Diocese, 921 F. Supp. 66 (D.
Conn. 1995); Preece v. Covenant Presbyterian Church,
No. 8:13CV188, 2015 WL 1826231 (D. Neb. Apr. 22, 2015);
MacDonald v. Grace Church Seattle, No. C05-0747C, 2006
WL 1009283 (W.D. Wash. Apr. 14, 2006).
A similar split exists among the state high courts.
Maine, Missouri, Washington, and Wisconsin respect the
First Amendment’s protection of religious autonomy and
disallow such tort claims against religious institutions.
Erdman v. Chapel Hill Presbyterian Church, 286 P.3d
357 (Wash. 2012); Swanson v. Roman Catholic Bishop
of Portland, 692 A.2d 441 (Me. 1997); Gibson v. Brewer,
952 S.W.2d 239 (Mo. 1997); Pritzlaff v. Archdiocese of
Milwaukee, 533 N.W.2d 302 (Wis. 1995).
In contrast, Colorado, Florida, Ohio, Mississippi, and
Tennessee allow such tort claims. Moses v. Diocese of

11
Colorado, 863 P.2d 310 (Colo. 1993); Malicki v. Doe, 814
So.2d 347 (Fla. 2002); Roman Catholic Diocese of Jackson
v. Morrison, 905 So.2d 1213 (Miss. 2005); Byrd v. Faber,
565 N.E.2d 584 (Ohio 1991); Redwing v. Catholic Bishop
for Diocese of Memphis, 363 S.W.3d 436 (Tenn. 2012).
The Florida Supreme Court has well expressed the
critical need for the Court to provide guidance: “The
question unanswered thus far by the United States
Supreme Court is how far the religious autonomy principle
… may be extended to bar the adjudication of a third-party
tort claim that calls into question a religious institution’s
acts or omissions.” Malicki, 814 So.2d at 357. The Court
should grant certiorari to answer this question and provide
the needed direction to all federal and state courts.
2.

Califor nia’s analy tical g y mnastics
in ascribing clergy status to a mere
congregant was predicated upon conflation
of separate entities and attenuated factors
that burden religion.

The facts here are far attenuated from those instances
in which an individual holds a clergy position at the time
he commits a criminal act. Simental’s appointment as an
elder by CCJW was terminated by CCJW eight months
before the events giving rise to Plaintiff’s claim. Despite
this, California imposed a duty upon Watchtower to
supervise Simental, a congregant, during his personal
activities at his home simply because of a past religious
appointment. In the process, California ignored the fact
that Simental’s appointment was made by a different legal
entity (CCJW), that neither Watchtower nor CCJW had
notice that Simental was a danger to children, and that
the decision created a duty into perpetuity.

12
California disregarded the fact that Simental was not
an elder at the time of the abuse and was not deterred in
punishing Watchtower. California overcame Plaintiff’s
admission by conflating legal entities and ignoring the
legal effect of Simental’s post-termination status.
a.

California’s conflation of legal entities
used by Jehovah’s Witnesses violated
the Establishment Clause.

California eviscerated a religion’s right to establish its
own ecclesiastical structure through the use of multiple
legal entities. Serbian Eastern Orthodox Diocese for
United States and Canada v. Milivojevich, 426 U.S. 696,
724 (1976) (The “First and Fourteenth Amendments
permit hierarchical religious organizations to establish
their own rules and regulations for … government.”).
In this case, Plaintiff sued four distinct legal entities.
However, after Plaintiff voluntarily dismissed three,
California held Watchtower legally responsible for all.
California ignored the fact that Watchtower’s role
as the national office ended in 2001. Watchtower was not
involved with activities of local congregations at times
relevant to this case. Plaintiff acknowledged that CCJW
supported the congregations in place of Watchtower.
Notwithstanding, California held Watchtower liable for
a religious appointment CCJW made. It also ascribed
liability to Watchtower after CCJW was voluntarily
dismissed from the case.
If the four defendants in this case had all been part
of a secular corporate structure, the court would have
recognized the legal boundaries of each. At a minimum,

13
religious organizations are entitled to the same protections
as secular organizations. But California failed to recognize
the organizational structure of Jehovah’s Witnesses and
held Watchtower responsible for the actions of multiple
entities that support the faith.
b.

California’s shocking expansion of
negligent hiring/retention to include
former clergy places a burden on
religion in violation of the Free
Exercise Clause.

Even had Simental not been terminated (he had been)
and even had Watchtower been on notice that he was
dangerous (Plaintiff offered no evidence of notice), any
duty to supervise would be limited to his ecclesiastical
activity. California’s creation of the unprecedented duty
to supervise a former elder during his personal activities
unconstitutionally burdens religion.
Watchtower repeatedly highlighted the absence of any
connection between its religious activities and the social
function where the criminal act occurred. Watchtower also
repeatedly argued that it had no relationship with either
the Plaintiff or Simental and thus owed no duty to protect
Plaintiff or supervise Simental. Yet California imposed
liability based upon the theory of CCJW’s negligent
hiring/supervision because Watchtower did not comply
with an Order for disclosure of nationwide intra-faith
communications among elders, even though Watchtower’s
disclosure of those communications would not have given
rise to a negligent hiring claim, or any other claim, against
Watchtower.

14
California knew that Simental’s religious appointment
by CCJW ended before Plaintiff accepted the party
invitation and before Simental’s crime occurred. It also
knew there was no connection between Watchtower’s
religious activities and the Saturday afternoon pool party
at Simental’s home. In essence, California found liability
because Plaintiff and Simental met at church when
Simental had formerly been an elder. By that standard,
religious organizations remain liable in perpetuity for
post-termination criminal acts of former clergy, whenever
and wherever they commit a criminal act.
B. California’s shocking expansion of negligent
hiring/retention creates d rastic public
policy considerations that will reverberate
through religious, charitable, and business
communities.
To pass constitutional muster, California’s expansion
of negligent hiring/retention must be generally applicable
to all organizations or it impermissibly targets religion
in contravention of the First Amendment. Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520
(1993). If a religion can be required to supervise a former
congregation elder during personal activities in his private
home, then secular businesses, charitable organizations,
and every other entity with a former agent or an employee
would be required to do the same. California’s expansive
new duty opens the floodgate of civil litigation that will
inflict an onerous financial burden on charities and
commercial enterprises alike—especially for claims like
this one that involve uninsurable criminal misconduct. 3
3. Liability under these circumstances also uproots programs
that provide incentives for employers to hire rehabilitated felons.
Under California’s standard, no employer will hire anyone with an

15
II. California violated the First and Fourteenth
Amendments when it ordered production of
nationwide communications that were wholly
unrelated to Plaintiff’s claims and then punished
Watchtower with terminating sanctions and
judgment using a constitutionally infirm theory of
liability.
NLRB v. Catholic Bishop of Chicago, 440 U.S. 490, 504
(1979) teaches that “serious First Amendment questions”
follow inquiry into a church-employee relationship because
the inquiry risks entanglement into matters of religion.
“It is not only the conclusions that may be reached by the
[court] which may impinge on rights guaranteed by the
Religion Clauses, but also the very process of inquiry
leading to findings and conclusions.” Id. at 502. How
much more so then did California’s inquiry into matters
of ecclesiastical governance unconnected to secular
relationships violate the First Amendment.
In 1997, when Watchtower was still involved in the
affairs of congregations, it undertook ecclesiastical
measures to ensure that elders (clergy) met the Scriptural
qualifications set forth at 1 Timothy 3:1-13; Titus 1:59; James 3:17, 18; and 1 Peter 5:2, 3 (e.g. they must be
irreprehensible, sound in mind, free from accusation,
righteous, and self-controlled). It communicated with
elders in over 10,000 congregations nationwide. The intrafaith communications Watchtower received from elders
became the focus of California’s inquiry.4
unsavory past regardless of whether rehabilitation efforts appear
likely to succeed.
4. Plaintiff’s counsel attempts to circumvent this ecclesiastical
bar by referring to these intra-faith communications as

16
Watchtower was in full compliance with all orders
regarding documents related to Simental. Notwithstanding,
Plaintiff demanded nationwide intra-faith communications
unconnected to this case. Watchtower resisted production,
as many of the communications contained information
protected by the confidentiality of confession. Further,
Watchtower asserted the privacy rights of those
individuals mentioned in the communications.
A.

California refused to preserve confidentiality
for the communications between Jehovah’s
Witnesses and their spiritual counselors.

In Trammel v. United States, 445 U.S. 40, 51 (1980),
this Court described the seriousness of the need to
preserve confidence in the communications between
persons and their spiritual counselors. Most states
recognize that need and extend evidentiary privilege
to intra-faith communications. California’s recognition
is limited to protecting only intra-faith communications
based upon the Catholic model of confession—one-onone—involving one clergy member and one penitent. Cal.
Evid. Code § 1034; Roman Catholic Archbishop of Los
Angeles v. Superior Court, 131 Cal.App.4th 417 (2005).
The Bible provides for multiple elders to be involved
in confessional communications which are Scripturally
considered subject to the confidentiality of confession.
(James 5:14-16; Proverbs 25:9) California refuses to extend
protection to such communications, since they do not fit
its rigid model of confession. Thus, the state has created
“molestation files” as though they were part of an employee
personnel file or risk management records. Nothing could be
further from the truth.

17
an unconstitutional preference for a specific religious
practice. A state can decide whether or not to accord
protection to confessional communications, but a religion
must be allowed to decide what communications are part
of its confessional practices.
California even demanded disclosure of confessional
communications of citizens of other states. In other states,
those citizens who communicated with elders would have
received protection, since states like Utah, Iowa, and
Montana extend evidentiary privilege to other intrafaith communications. Scott v. Hammock, 870 P.2d 947
(Utah 1994) (holding the original communication between
church member and lay minister was privileged and the
subsequent communication to higher authority as required
by the faith was also privileged); Reutkemeier v. Nolte, 161
N.W. 290 (Iowa 1917) (confession to pastor in the presence
of three elders privileged); State v. MacKinnon, 957 P.2d
23 (Mont. 1988) (adopting broader interpretation of the
clergy-penitent privilege as set forth in Scott, 870 P.2d
947); Jane Doe v. Corp. of President of Church of Jesus
Christ of Latter-Day Saints, 90 P.3d 1147, 1153 (Wash.
Ct. App. 2004) (presence of stake executive secretary at
confession did not vitiate the confidentiality requirement
of the clergy-penitent privilege).
By ordering this production, California abrogated
the constitutional protections to which citizens of other
states are entitled for their confessional communications,
effectively eviscerating their religious and privacy rights
protected by the First and Fourteenth Amendments.

18
B. California refused to preserve privacy rights
for the communications between Jehovah’s
Witnesses and their spiritual counselors.
Americans have the “right to be let alone—the most
comprehensive of rights and the right most valued by
civilized men.” Olmstead v. United States, 277 U.S.
438, 478 (1928) (Brandeis, J., dissenting). Even Justice
Brandeis’ prescience could not have envisioned the
onslaught citizens face on their privacy rights today.
By its ruling, California moves one step closer to a noprivacy zone, in that it no longer considers the deepest
and most personal communications between ministers
and communicants as sacrosanct.
Notably, one of Jehovah’s Witnesses’ firmly-held
Bible-based beliefs is that those who are “spiritually sick”
should seek confidential assistance from congregation
elders: “Is there anyone sick among you? Let him call
the elders of the congregation to him, and let them pray
over him ... in the name of Jehovah ... if he has committed
sins, he will be forgiven. Therefore, openly confess your
sins ... so that you may be healed.” James 5:14-16. Penitent
individuals open their hearts to their spiritual shepherds,
confident that the information about their spiritual health
remains private. This essential privacy was invaded by
California’s discovery order. Rather than leaving them
alone, California attempted to drag into this litigation
individuals unrelated to Simental or the pool party.
Congressional enactment of the Health Insurance
Portability and Accountability Act (HIPAA) of 1996 well
illustrates the respect that should be accorded sensitive
personal information. 42 U.S.C. §§ 1320d to 1320d-8.

19
HIPAA protects records that contain private information
about physical and mental health. Records reflecting
matters of spiritual health should be accorded the same
level of protection.
By ordering production of spiritual health information,
California showed disdain for one of the most cherished
rights, the right to be left alone.
III. California violated due process when it rewarded
mendacity and refused adjudication on the merits.
California’s tort system violates due process demands
of congruence and proportionality. See e.g., State Farm
Mut. Auto. Ins. Co. v. Campbell, 538 U.S. 408 (2003).
Due process should not allow a state to issue the
“death penalty” to a religion that fought to protect the
confidentiality of confession and the privacy rights of
congregants in matters of spiritual health. Due process
should also not allow the state to create an unprecedented
duty to supervise a former cleric during his personal
activities.
Watchtower does not question a court’s power to
sanction litigants. But the exercise of that power must
be within constitutional limits. For example, the Fourth
Circuit Court of Appeals explained that a court must “act
cautiously when the sanction imposed is that of default
judgment, which is ‘the most severe in the spectrum
of sanctions provided by statute or rule.’” Wilson v.
Volkswagen of America, Inc., 561 F.2d 494, 503 (4th Cir.
1977). The court’s “range of discretion is more narrow”
because the use of sanctions to enforce discovery rules
and court orders becomes “an infringement upon a party’s

20
right to trial by jury under the seventh amendment,” runs
counter to “sound public policy of deciding cases on their
merits,” and deprives a party of his “fair day in court.” Id.
at 503-04. Accordingly, to select the appropriate sanction,
courts should consider not just non-compliance but also
“‘how the absence of such evidence (not produced) would
impair (the other party’s) ability to establish their case’
and whether the non-complying party’s ‘conduct (in not
producing documents) would deprive (the other party) of
a fair trial.’” Id. at 505.
Addressing a court’s power to issue discovery
sanctions, this Court has explained that Federal Rule
of Civil Procedure 37(b)(2) contains two standards—one
general and one specific—that limit a court’s discretion.
First, any sanction must be “just”; second, the sanction
must be specifically related to the particular “claim”
which was at issue in the order to provide discovery. The
requirement that a sanction be “just” represents the due
process restrictions on a court’s discretion. Ins. Corp. of
Ireland, Ltd. v. Compagnie des Bauxites de Guinee, 456
U.S. 694, 707 (1982). California Code of Civil Procedure §
2031.310(i) imposes the same limit on a court by providing
that a discovery sanction must be just.
Here, the basis for terminating sanctions was infirm
because it was based upon Watchtower’s failure to
produce nationwide intra-faith communications that did
not involve Plaintiff or Simental. Even if the inquiry into
religious governance had been appropriate, California
became excessively entangled in religious matters
when it repeatedly conducted judicial proceedings
related to nationwide documents containing sensitive
communications between clerics. The orders that followed

21
those unconstitutional proceedings violated the privacy
rights of nonparties and unconstitutionally burdened the
free exercise of religion. Finally, California consciously
ignored reality and entered judgment against Watchtower.
A default judgment cannot properly be based upon a
complaint that fails to state a cause of action against the
party defaulted. As the Fifth Circuit explained, a “party
is not entitled to a default judgment as a matter of right,
even where the defendant is technically in default” since
“[d]efault judgments are a drastic remedy ... resorted to
by courts only in extreme situations.” Lewis v. Lynn, 236
F.3d 766, 767 (5th Cir. 2001) (per curiam). This Court has
long held that “[t]he judgment having been rendered on
default, upon a declaration setting forth no cause of action,
may be reversed on writ of error.” Cragin v. Lovell, 109
U.S. 194, 199 (1883). A well-plead complaint “requires
more than labels and conclusions … enough to raise a right
to relief above the speculative level … on the assumption
that all the allegations in the complaint are true (even if
doubtful in fact).” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007). Here, the allegation was not doubtful.
California knew it was untrue. Thus, the multimillion
dollar judgment was constitutionally infirm as it violated
fundamental norms of due process.
IV. To effectively ensure that citizens obtain the
liberties guaranteed under the Bill of Rights, the
Seventh Amendment should be applicable to the
states.
When confronted with Plaintiff’s admission that
Simental was not an elder when he abused her at his
private home, California reframed Plaintiff’s theory of

22
the case by creating an unprecedented theory of liability.
To impose terminating sanctions rather than allow
Watchtower to litigate, California abrogated Watchtower’s
right to trial by jury and in the process its ability to defend
constitutionally protected religious rights.
It is hard to conceive of a safeguard more “‘fundamental
to our scheme of ordered liberty,’ or ‘deeply rooted in [our]
history and tradition,’” than the right to a jury trial in
civil cases. Timbs v. Indiana, 139 S. Ct. 682, 686-87 (2019)
(citing McDonald v. Chicago, 561 U.S. 742, 767 (2010))
(internal quotation marks omitted). “In magna carta [trial
by jury] is more than once insisted on as the principal
bulwark of our liberties, but especially … that no freeman
shall be hurt in either his person or property” without a
trial by jury. 3 William Blackstone Commentaries 350.
This right was enshrined in the United States Constitution
through the Seventh Amendment. Justice Story stated
that
[this] is a most impor tant and valuable
amendment; and places upon the high ground
of constitutional right the inestimable privilege
of a trial by jury in civil cases, a privilege
scarcely inferior to that in criminal cases, which
is conceded by all persons to be essential to
political and civil liberty.
3 J. Story, Commentaries on the Constitution of the United
States, § 1762 (1833). It should be of no moment that this
right was abrogated by a state, rather than the federal
government.

23
In this decade this Court has been incorporating the
remaining provisions of the Bill of Rights that have yet to
“apply with full force to both the Federal Government and
the States” by the Due Process Clause of the Fourteenth
Amendment. McDonald, 561 U.S. at 749-50 (incorporating
the Second Amendment “right to keep and bear arms
for the purpose of self-defense”); Timbs, 139 S. Ct. 682
(incorporating the Eighth Amendment’s Excessive Fines
Clause); see also Ramos v. Louisiana, 139 S. Ct. 1318
(Mem), No. 18-5924 (Mar. 18, 2019) (“Petition for writ
of certiorari granted” on the question—“Whether the
Fourteenth Amendment fully incorporates the Sixth
Amendment guarantee of a unanimous verdict?”). Should
this Court rule in favor of the Petitioner in Ramos, only
three provisions of the Bill of Rights would remain
inapplicable to the states: “[T]he Third Amendment’s
protection against quartering of soldiers … the Fifth
Amendment’s grand jury indictment requirement … [and]
the Seventh Amendment right to a jury trial in civil cases.”
McDonald, 561 U.S. at 765 n.13.
These incorporations of remaining constitutional
protections are a result of this Court’s having “abandoned
‘the notion that the Fourteenth Amendment applies to
the States only a watered-down, subjective version of the
individual guarantees of the Bill of Rights,’ stating that
it would be ‘incongruous’ to apply different standards
‘depending on whether the claim was asserted in a state or
federal court.’” Id. Rather, this Court adopted a different
approach by “decisively [holding] that incorporated Bill
of Rights protections ‘are all to be enforced against the
States under the Fourteenth Amendment according to
the same standards that protect those personal rights
against federal encroachment.’” Id. Thus, “[e]mploying
this approach, the Court overruled earlier decisions in

24
which it had held that particular Bill of Rights guarantees
or remedies did not apply to the States.” Id. at 766.
This Court has recognized that the right to a jury trial
in civil cases has yet to be applied to the states because
the “governing decision[ ] regarding … the Seventh
Amendment’s civil jury requirement long predate[s] the
era of selective incorporation.” Id. at 765 n.13; see also,
Minneapolis & St. Louis R.R. Co. v. Bombolis, 241 U.S.
211 (1916). Bombolis held “[t]hat the first ten Amendments,
including, of course, the 7th, are not concerned with state
action, and deal only with Federal action.” Id. at 217. The
Bombolis court relied upon Barron v. Mayor & City
Council of Baltimore, 32 U.S. 243 (1833) and Livingston
v. Moore, 32 U.S. 469 (1833), cases that pre-date the
ratification of the Fourteenth Amendment, to hold “that
the 7th Amendment applies only to proceedings in courts
of the United States, and does not in any manner whatever
govern or regulate trials by jury in state courts, or the
standards which must be applied concerning the same.”
Bombolis, 241 U.S. at 217. Bombolis and its progeny
should be overruled. The exalted position of the right to
trial by jury in civil cases in the formation of this Nation is
difficult to overstate. Incorporating this right to the states
would allow this Amendment to function as a bulwark
against state action targeting religious minorities, by
removing fact-based decision making from functionaries
and providing it to the people.
Watchtower does not contend that incorporating this
amendment would bar states from imposing terminating
sanctions when appropriate. Rather, applying this right to the
states would establish a constitutional guardrail whenever
courts act as judge, jury, and executioner in extinguishing
constitutional rights to trial by jury and due process.

25
When California was faced with the admission that a
key element of Plaintiff’s theory of liability was false, it
had three options: dismiss the case for failure to state a
cause of action, restore the case by allowing the Plaintiff
to amend her Complaint and placing the case back on
track for a jury trial, or enter a multimillion dollar
judgment against a national religious corporation that was
endeavoring to protect religious and privacy rights. By
choosing the latter, California unconstitutionally deprived
Petitioner of the right to have its First Amendmentbased defenses adjudicated by a jury, not terminated
by the State, in violation of the Seventh and Fourteenth
Amendments.
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for a writ of certiorari.
				

Respectfully submitted,
Paul D. Polidoro
Counsel of Record
Joel M. Taylor
Legal Department
Watchtower Bible and Tract
Society of New York, Inc.
100 Watchtower Drive
Patterson, NY 12563
(845) 306-1000
ppolidor@jw.org
Counsel for Petitioner

APPENDIX

1a
Appendix
APPENDIX A — DENIAL
OFAPETITION IN THE
SUPREME COURT OF CALIFORNIA,
FILED MARCH 27, 2019
IN THE SUPREME COURT OF CALIFORNIA
S253669
En Banc
J. W., A MINOR, etc.,
Plaintiff and Respondent,
v.
WATCHTOWER BIBLE AND TRACT
SOCIETY OF NEW YORK, INC.,
Defendant and Appellant.
Court of Appeal, Fourth Appellate District,
Division Two - No. E066555
Supreme Court
filed March 27, 2019
The petition for review is denied.
The request for an order directing depublication of the
opinion is denied.
					/s/Cantil-Sakauye
		
Chief Justice

2a
APPENDIX B —Appendix
DENIALAOF REHEARING
OF THE COURT OF APPEAL, STATE OF
CALIFORNIA, FOURTH DISTRICT, DIVISION
TWO, FILED DECEMBER 31, 2018
COURT OF APPEAL -- STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
E066555
J. W., A MINOR, ETC.,
Plaintiff and Respondent,
v.
WATCHTOWER BIBLE AND TRACT
SOCIETY OF NEW YORK, INC.,
Defendant and Appellant.
(Super. Ct. No. MCC1300850)
The County of Riverside
ORDER
THE COURT
Appellant’s petition for rehearing is DENIED.
MILLER
/s/			
Acting Presiding Justice

3a
AppendixOF
C THE COURT OF
APPENDIX C — OPINION
APPEAL OF THE STATE OF CALIFORNIA,
FOURTH APPELLATE DISTRICT, DIVISION
TWO, FILED DECEMBER 10, 2018
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, FOURTH APPELLATE DISTRICT
DIVISION TWO
E066555
J. W., A MINOR, ETC.,
Plaintiff and Respondent,
v.
WATCHTOWER BIBLE AND TRACT
SOCIETY OF NEW YORK, INC.,
Defendant and Appellant.
December 10, 2018, Opinion Filed
(Super. Ct. No. MCC1300850)
APPEAL from the Superior Court of Riverside
County, Thomas A. Peterson (retired judge of the Los
Angeles Super. Ct., assigned by the Chief Justice pursuant
to art. VI, § 6 of the Cal. Const.); David E. Gregory,
temporary judge (pursuant to Cal. Const., art. VI, § 21 );
and Raquel A. Marquez, Judges. Affirmed

4a
Appendix C
Plaintiff and respondent J.W., through her guardian
ad litem, sued defendant and appellant Watchtower Bible
and Tract Society of New York, Inc. (Watchtower) and
others for (1) negligence; (2) negligent supervision/failure
to warn; (3) negligent hiring/retention; (4) negligent failure
to warn, train, or educate J.W.; (5) sexual battery; and (6)
intentional infliction of emotional distress. In January 2014,
J.W. filed a motion to compel further discovery responses.
On February 11, the trial court granted the motion in part.
The trial court’s order compelled Watchtower to produce
all documents Watchtower received in response to a letter
sent by Watchtower to Jehovah’s Witness congregations
on March 14, 1997, concerning known molesters in the
church (1997 Documents).
By November 2014, Watchtower had not produced
the 1997 Documents, and J.W. moved for terminating
sanctions. At a hearing on the sanctions motion, the trial
court offered Watchtower four days to produce the 1997
Documents. Watchtower declined the offer and refused to
produce the 1997 Documents. The trial court granted the
motion for terminating sanctions and struck Watchtower’s
answer. The trial court clerk entered Watchtower’s
default. After considering evidence, the trial court entered
judgment in favor of J.W. and awarded her $4,016,152.39.
On appeal, Watchtower raises four issues. First,
Watchtower contends J.W. failed to allege proximate
cause in her first amended complaint (FAC). Second,
Watchtower asserts its right of due process was violated.
Third, Watchtower contends terminating sanctions
were excessive because lesser sanctions may have been

5a
Appendix C
effective. Fourth, Watchtower contends the trial court
erred by denying Watchtower’s motion for relief from the
terminating sanctions. We affirm the judgment.
FACTUAL AND PROCEDURAL HISTORY
A. FAC
The facts in this subsection are taken from J.W.’s
FAC. Watchtower “organized, administered and directed
the congregational affairs of Jehovah’s Witnesses in the
United States.” “The organizational structure of the
Jehovah’s Witness Church is hierarchical in nature. The
organizational head of the Religion is the Watchtower.
Authority flows downward from Watchtower to the local
level of the Church, which is made up of congregations.
[¶] Watchtower is the head of the Jehovah’s Witness
Hierarchical structure. Watchtower is directed by a
Governing Body, which is comprised of a fluctuating
number of Elders.” “Watchtower establishes processes
for the discipline of members accused of wrongdoing,
and receives and keeps records of determinations of
disfellowship, or of reproval of individuals appointed by
Watchtower and Ministerial Servants or Elders.”
In the hierarchical structure, the level below
Watchtower is the circuit. “Circuits are generally
comprised of 20 to 22 Congregations.” The next level down
consists of the local congregations, which are managed by
a body of elders. “Elders are the highest authority at the
congregational level and direct door to door preaching
activities, select potential candidates for becoming

6a
Appendix C
Ministerial Servants and Elders, organize weekly church
meetings, determine whether an individual is suitable for
representing the church in the community by becoming
a Publisher, handle finances for the local church, and
determine the guilt, repentance and punishment of church
members who commit serious sins.
“To be appointed as an Elder, a person must be a
Ministerial Servant in good standing, or have served as
an Elder in another congregation. The Body of Elders
of the local church identifies potential candidates and
determines whether they are suitable, and if they live
their life in accordance with appropriate morals. Once
a candidate has been identified by the local church, a
recommendation is made to Watchtower, or later, CCJW
(Christian Congregation of Jehovah’s Witnesses, Inc.), who
have the ultimate authority as to whether a candidate is
approved and becomes an Elder.”
“Congregants are encouraged to bring problems to
the Elders to be resolved rather than to seek intervention
from outside of the Jehovah’s Witness faith. In practice,
when a Congregant commits an act of wrongdoing, such
as the sexual abuse of a child, that matter may be brought
to an Elder to be resolved.” If the alleged perpetrator
confesses, or if there are two witnesses to the alleged
wrongdoing, then a judicial committee will be convened.
J.W. is a female. J.W. was born in 1997. J.W. was raised
as a Jehovah’s Witness. In July 2006, J.W. and Gilbert

7a
Appendix C
Simental1 belonged to the Mountain View Congregation
of Jehovah’s Witnesses. Prior to July 2006, at a different
congregation, Simental served as a ministerial servant and
as an elder. Upon joining the Mountain View congregation,
Simental served as an elder. Simental’s position as an elder
created access to J.W.
“On July 15, 2006, [J.W.] and three other girls were
invited to a slumber party at [Simental’s] home. [Simental]
had a daughter near the age of [J.W.] and the other invited
girls. [¶] During that afternoon, [Simental] joined the girls
in a pool in the backyard. While in the pool, [Simental]
sexually molested [J.W.] and another girl (Doe 1) in
separate incidents. Doe 1’s sister, Doe 2, had previously
been molested on two occasions by [Simental].”
Doe 1 and Doe 2 told their mother about Simental
molesting them. The mother contacted an elder of the
congregation, and a judicial committee was convened.
Simental admitted he molested Doe 2 on two occasions,
and that he molested Doe 1 twice on July 15. The judicial
committee reproved Simental.
The principal of Doe 1 and Doe 2’s school was notified
of the abuse, and s/he reported it to law enforcement.
Approximately two months after July 15, J.W.’s parents
received a telephone call from the Murrieta Police
Department asking if Simental sexually abused J.W. J.W.’s
father (Father) spoke to the elders of the Mountain View
1. J.W. spelled Simental’s name as Simentel. We use the spelling
from Simental’s criminal case: People v. Simental (Aug. 10, 2009,
E046303) (nonpub. opn.).

8a
Appendix C
congregation who advised Father that J.W. did not have
to speak with the police.
J.W. and her family began attending a different
congregation—the French Valley Congregation of
Jehovah’s Witnesses. Unbeknownst to J.W. and her family,
Simental also moved to the French Valley congregation.
Approximately one year after July 2006, J.W. informed
her parents of the extent of Simental’s sexual touching.
J.W.’s parents spoke to the police and then to the elders of
the French Valley congregation. The elders came to J.W.’s
home and “interrogated JW, who was approximately ten
years of age, about the abuse in explicit detail. JW, and
her parents, were very upset by the explicit nature of the
questions asked, and the depth to which the Elders probed
for information.”
Father told the elders that he was thinking of
requesting a restraining order against Simental. The
elders told Father that he did not need to speak to the
police, “and that to do so would bring reproach on the
congregation.” In two criminal cases, Simental was found
guilty of molesting Doe 1, Doe 2, and J.W. 2
J.W.’s first cause of action was for negligence. J.W.
asserted Watchtower had a duty to protect J.W., who was
entrusted to Watchtower’s care by J.W.’s parents. J.W.
asserted Watchtower had a duty to control Simental and
prevent him from sexually molesting children. J.W. alleged
2. The criminal appellate case concerning Doe 1 and Doe 2 is
People v. Simental (Aug. 10, 2009, E046303) (nonpub. opn.).

9a
Appendix C
that Watchtower was “aware, prior to the sexual abuse
of [J.W.] herein, of [Simental’s] dangerous and exploitive
propensities. [Watchtower was] also aware that [it] had
the ability to place restrictions on [Simental’s] access to
children, service and preaching activities, give warnings
to the congregation, and otherwise control Simental’s
conduct.”
Further, J.W. alleged Watchtower had a duty to
investigate Simental and to not employ Simental as a
ministerial servant or elder. J.W. asserted Watchtower
knew Simental “was likely to harm others in light of the
work entrusted to him.” J.W. alleged, Watchtower “knew
or reasonably should have known of [Simental’s] dangerous
and exploitive propensities and/or that [Simental] was an
unfit agent. It was foreseeable that if [Watchtower] did not
adequately exercise or provide the duty of care owed to
children in their care, including but not limited to [J.W.],
the children entrusted to [Watchtower’s] care would be
vulnerable to sexual abuse by [Simental].”
J.W.’s second cause of action was for negligent
supervision/failure to warn. J.W. alleged Watchtower
had a duty to provide reasonable supervision of Simental,
to use reasonable care in investigating Simental, and
to provide adequate warning to J.W. and her family of
Simental’s dangerous propensities. J.W. further alleged
that Watchtower knew or reasonably should have known
of Simental’s dangerous or exploitive propensities, and
despite such knowledge failed to adequately supervise
Simental. J.W. asserted Simental’s position as an elder
allowed him to gain access to J.W.

10a
Appendix C
J.W.’s third cause of action was for negligent hiring/
retention. J.W. asserted Watchtower knew or should have
known of Simental’s dangerous or exploitive propensities,
and therefore had a duty not to hire or retain Simental as
a ministerial servant or elder. J.W.’s fourth cause of action
was for negligent failure to warn, train, or educate J.W.
J.W. asserted Watchtower had a duty to protect her from
sexual abuse by Simental.
J.W.’s fifth cause of action was for sexual battery.
J.W. asserted Simental was aided in molesting J.W. “by
his status as an agent of … Watchtower … . Without
his position as a … Ministerial Servant and/or Elder,
[Simental] could not have accomplished the harmful and
offensive touching of [J.W.]” J.W.’s sixth cause of action was
for intentional infliction of emotional distress. J.W. alleged
Watchtower’s conduct was extreme and outrageous and
done in an intentional or reckless manner.
In J.W.’s prayer for relief she wrote, “[J.W.] prays for
damages; punitive damages against Defendant Mountain
View [Congregation of Jehovah’s Witnesses, Murrieta,
California]; costs; interest; statutory/civil penalties,
according to law; and such other relief as the court deems
appropriate and just.”
B. ANSWER
Watchtower filed an answer. Watchtower alleged,
what it labeled as, 12 affirmative defenses. The third
affirmative defense alleged a failure to state a claim, the
ninth affirmative defense alleged Watchtower did not owe

11a
Appendix C
a duty to J.W., and the 11th affirmative defense alleged a
lack of proximate cause.
C. MOTION TO COMPEL THE PRODUCTION OF
DOCUMENTS
1.

MOTION

J.W. filed a motion to compel further responses to a
request for the production of documents. J.W. asserted she
requested Watchtower produce various documents, and
Watchtower refused citing the clergy-penitent privilege.
Request for production No. 66 (RFP 66) provided, “ALL
DOCUMENTS received by YOU in response to the
Body of Elders letter dated March 14, 1997.” In her
motion to compel, J.W. explained, “On March 14, 1997,
Watchtower addressed a letter to All Bodies of Elders,
which required all Congregations to check their files and
respond in writing to the Service Department explaining
all occasions when a person who was known to have
molested a child was promoted to a responsible position
in the Congregation, including positions as an Elder or
Ministerial Servant, among others.”
J.W. argued, “Any information received by Watchtower
in response to this letter … is relevant to understanding
the formation of organizational policy regarding childhood
sexual abuse, and is also relevant toward establishing the
level of institutional knowledge of [Watchtower] regarding
childhood sexual abuse, which is relevant in establishing
the reasonableness of organizational policy, efforts to
educate members, supervision of [J.W.] and Simental, and

12a
Appendix C
other considerations concerning duty and breach. Also,
[J.W.] has alleged a claim for punitive damages against
Defendant Mountain View, and will consider amending
to allege a claim for punitive damages against the other
Defendants. [S]uch information is relevant to a punitive
damage[s] claim.”
J.W. asserted the clergy-penitent privilege was not
applicable because the responses to the March 14, 1997,
letter were made with the understanding that they
would be shared with others. J.W. requested sanctions be
imposed in the amount of $1,680.
2.

J.W.’S SEPARATE STATEMENT

Watchtower objected to RFP 66 based upon (1) the
minister-communicant privilege; (2) invasion of privacy;
(3) the request not leading to admissible evidence; and
(4) the request being overbroad. Further, Watchtower
responded that it did not have any documents predating
July 15, 2006, concerning Simental, which were sent in
response to the March 14, 1997, letter.
J.W. argued that any information received by
Watchtower in response to the March 14, 1997, letter
would be relevant to understanding Watchtower’s
“organizational policy regarding childhood sexual
abuse,” as well as understanding Watchtower’s “level of
institutional knowledge … regarding childhood sexual
abuse.” J.W. asserted evidence of Watchtower’s knowledge
would be relevant to proving duty and breach, as well as
a possible future claim for punitive damages.

13a
Appendix C
3.

OPPOSITION

Watchtower opposed J.W.’s motion to compel, arguing,
“Watchtower produced a ‘Privilege Log,’ which identified
fifteen (15) items constituting all the records responsive to
[J.W.’s] search. Watchtower contends that [J.W.]’s request
unreasonably exceeds the proper scope of discovery and
that court ordered production of any of the records would
constitute an unnecessary, unconstitutional, interference
with the internal governance of a church.” The privilege
log related to J.W.’s request for production No. 2.
Further, Watchtower asserted the slumber party,
at which J.W. was molested, was not a church sponsored
event. Watchtower contended Simental was a regular
congregation member in July 2006; he was not an elder.
Watchtower contended it did not have any records
indicating Watchtower knew, prior to July 2006, that
Simental posed a risk of harm to children.
In a declaration by Watchtower’s Associate General
Counsel, Mario F. Moreno, he asserted attorney-client
privilege applied to various documents requested by
J.W. Moreno specifically identified various documents
and explained why the attorney-client privilege should
be applied. Moreno did not specifically identify the 1997
Documents.
4.

RESPONSE

J.W. responded to Watchtower’s opposition. J.W.
asserted Watchtower failed to address the portion of her

14a
Appendix C
motion to compel related to the 1997 Documents. J.W.
contended that Watchtower’s failure to oppose that portion
of her motion should be treated as a concession.
5.

HEARING

On February 11, 2014, the trial court, in particular
Judge Peterson, held a hearing on J.W.’s motion to
compel. The trial court denied J.W.’s motion in relation
to specific documents that were identified as protected by
the attorney-client privilege. As to all other documents/
requests, the trial court granted J.W.’s motion. The minute
order from the hearing reads, “Motion is granted and
denied in part [¶] ruling as stated on the record.” (All
caps. omitted.)
D. MOTION TO SET ASIDE
1.

MOTION

Watchtower filed a motion to set aside the trial
court’s order compelling Watchtower to produce the 1997
Documents, or, in the alternative to issue a protective
order. Watchtower asserted, “This particular aspect of
the Court’s order, however, was entered without opposing
argument by Watchtower as a result of [the] mistake and
excusable neglect of Watchtower’s counsel Calvin Rouse
and Rocky Copley.” Watchtower asserted it objected to
RFP 66, but did not address RFP 66 in its opposition to
the motion to compel because it did not understand that
the motion included RFP 66. Watchtower asserted its
confusion was due to (1) four separate motions having been

15a
Appendix C
filed, and (2) the motion to compel focusing primarily on
issues other than RFP 66.
Watchtower requested leave to file an amended
opposition. Watchtower asserted RFP 66 was overbroad;
the 1997 Documents were protected by attorney-client
privilege; and that it would take approximately 19 years
to go through the 14,000 congregation files to produce the
1997 Documents.
2.

OPPOSITION

J.W. opposed Watchtower’s motion to set aside the
order compelling production of the 1997 Documents.
J.W. asserted Watchtower could not have been confused
about RFP 66 being part of the motion to compel because
a section of the motion expressly discussed the 1997
Documents, and a section of J.W.’s reply specifically
discussed Watchtower’s failure to address RFP 66 in its
opposition. Thus, J.W. reasoned that RFP 66 was explicitly
mentioned as part of the motion, and, therefore, it was not
an excusable mistake that Watchtower failed to oppose
the motion to compel as it related to RFP 66.
In regard to the production of the 1997 Documents
being too burdensome, J.W. asserted Watchtower’s person
most knowledgeable testified that the records had been
scanned into a computer system and that the text was
searchable. J.W. asserted it was not an undue burden to
search a computer system. As to the alternative request
for a protective order, J.W. asserted Watchtower’s request
was too late and lacked merit. J.W. requested sanctions
be imposed in the amount of $6,480.

16a
Appendix C
3.

RESPONSE

Watchtower responded to J.W.’s opposition. Watchtower
conceded that RFP 66 was part of J.W.’s motion to compel,
but asserted it was its attorneys’ excusable neglect that
caused Watchtower’s failure to oppose that portion of the
motion. Watchtower contended (1) it objected to RFP 66,
and, thus, there was no explanation, other than oversight,
for counsel’s failure to oppose RFP 66 within the motion to
compel; (2) counsel was working on four separate motions
to compel; and (3) the motions were confusing to the trial
court and J.W.’s counsel as well.
Watchtower conceded the files were electronic, but
that an elder would still need “to review more than
14,000 congregations’ files to determine if the hundreds
of pages in each file were relevant. … That is because
the sin of child abuse is often time described by elders
who write to the Service Department by the Scriptural
description of the specific sinful act, such as ‘porneia’,
‘fornication’, ‘loose conduct’, or ‘uncleanness.’ A search of
the term ‘child abuse’ would not produce the documents
requested.” Watchtower contended the search would be
further complicated by different states’ definitions of child
abuse because what is identified as child abuse in one state
may not qualify as child abuse in California. Watchtower
asserted its request for a protective order was timely.
Watchtower requested the trial court deny J.W.’s request
for sanctions.

17a
Appendix C
4.

REPLY

J.W. filed a reply. J.W. asserted expert testimony
reflected it “‘could take as little as two days and as long as
two months’” to retrieve the 1997 Documents. The expert
explained that finding the documents did not need to be
complicated, although one could make it complicated. For
example, one could use a search tool already provided by
Microsoft, or one could program a new search tool.
5.

HEARING

On May 9, 2 014, the tr ial cour t, speci f ically
Commissioner Gregory, held a hearing on Watchtower’s
motion to set aside the February 11 order. The trial court
said Watchtower asserted clergy-penitent privilege in
opposition to the motion to compel as it concerned RFP
66. The court said, “That argument was presented before
the Court. Whether it was adequately argued to the
satisfaction of defense counsel, it’s not to be revisited at
this time. It was argued, it must have been rejected. And
at this point, I see no reason to further consider the—
the correctness of the Court’s order ordering further
responses to the request for production of Document
Number 66.”
In regard to the production of the 1997 Documents
being too burdensome, the trial court said “those are
issues that well could, and more importantly, should
have been raised much, much earlier than today.” The
trial court found the request for a protective order to
be untimely. The trial court took the motion to set aside
under submission.

18a
Appendix C
6.

RULING

On May 13, the trial court denied Watchtower’s motion
to set aside the order compelling production of the 1997
Documents. The trial court wrote that Watchtower “shall
provide a full and complete response without objection
or claim of privilege, and shall further produce, all
documents responsive to [J.W.]’s request for production,
number 66, within 30 days.” The trial court denied J.W.’s
request for sanctions.
On June 23, the trial court issued an order that was
specific to RFP 66. The trial court specifically denied
Watchtower’s request to set aside the order compelling a
further response to RFP 66. The trial court denied J.W.’s
request for sanctions, finding that Watchtower acted with
substantial justification in bringing the motion to set aside.
7.

WRIT PETITION

Watchtower petitioned this court for a writ of mandate.
(Watchtower Bible and Tract Society of New York, Inc.
v. Superior Court (E061557) [order denying petn., Aug.
1, 2014].) Watchtower asserted the 1997 Documents
fell within the clergy-penitent privilege; the trial court
violated the Establishment Clause and Free Exercise
Clause of the United States Constitution; the trial court’s
order violated the privacy rights of third parties; and the
trial court’s order was unduly burdensome.
On July 23, 2014, this court issued a stay of the
document production. On August 1, this court dissolved

19a
Appendix C
the stay and denied the writ petition. This court’s order
provided, “First, petitioner’s request for a ‘protective order’
was in fact a disguised motion for reconsideration made
with no attempt to comply with Code of Civil Procedure
section 1008. Second, petitioner failed to establish that
a blanket privilege for penitent-clergy communications
applied to every document sought, many of which may well
have contained completely nonprivileged information from
reporting parties such as victims or parents of victims.
Third, in light of the apparent concession that petitioner’s
repository of documents has been electronically scanned
and is ‘searchable,’ the claims of burden and harassment
(which were tardily made) are not persuasive.”
8.

PETITION FOR REVIEW

Watchtower petitioned the Supreme Court for review
of this court’s August 1 order denying the writ petition. On
September 24, the Supreme Court denied Watchtower’s
petition.
E. MOTION FOR SANCTIONS
1.

MOTION

On November 17, 2014, J.W. filed a motion for
terminating sanctions. J.W. argued that she served her
request for production of documents on September 25,
2013, and despite court orders, Watchtower had not
produced the 1997 Documents over one year after being
served. J.W. explained that after the appellate process,
on September 29, 2014, she wrote to Watchtower seeking

20a
Appendix C
production of the 1997 Documents, but Watchtower did
not respond. On October 22 and November 5, J.W. again
sought to meet and confer regarding production of the
1997 Documents, but Watchtower did not respond.
J.W. asserted the 1997 Documents were necessary to
proving her negligence-based causes of action, and for an
anticipated claim for punitive damages. 3 J.W. contended
monetary sanctions could not repair the damage caused
by Watchtower’s withholding of the 1997 Documents
because J.W. needed the 1997 Documents to prove her
case. J.W. asserted sanctions establishing liability and
punitive damages would be insufficient because the jury
awarding damages would not see the harmful documents.
J.W. asserted that Watchtower’s misuse of the discovery
process caused it to forfeit its right to defend itself in
the instant case. J.W. requested the trial court strike
Watchtower’s answer.
2.

OPPOSITION

Watchtower opposed J.W.’s motion for sanctions.
Watchtower asserted terminating sanctions were an
3. “No claim for punitive or exemplary damages against a
religious corporation … shall be included in a complaint or other
pleading unless the court enters an order allowing an amended
pleading that includes a claim for punitive or exemplary damages
to be filed.” (Code Civ. Proc., § 425.14.) A court may grant leave to
file an amended pleading requesting punitive damages only upon an
affidavit reflecting the plaintiff has evidence, meeting the clear and
convincing standard of proof, to establish punitive damages. (Code
Civ. Proc., § 425.14.)

21a
Appendix C
extreme remedy that would deny Watchtower its right of
due process. Watchtower contended the 1997 Documents
were not relevant to J.W.’s case, and therefore, it would be
improper to impose terminating sanctions for the failure
to produce the 1997 Documents. Watchtower asserted
J.W.’s case would fail on the merits because Simental
was only a member of the congregation—he did not hold
a higher position—and therefore, Watchtower bore no
responsibility for his actions. As a result, Watchtower
reasoned that terminating sanctions would place J.W. in a
better position than she would have been in had the 1997
Documents been produced.
3.

REPLY

J.W. filed a reply to Watchtower’s opposition.
J.W. asserted that Watchtower’s arguments reflected
it disagreed with the trial court’s order compelling
production of the 1997 Documents. J.W. contended that
Watchtower’s “egregious contempt” for the trial court’s
authority warranted the imposition of terminating
sanctions.
J.W. argued the 1997 Documents were relevant to her
case because they could establish duty and breach for her
negligence-based causes of action, and they were relevant
to her anticipated punitive damages claim. J.W. asserted
that because the 1997 Documents were relevant to a large
portion of her case, terminating sanctions would not result
in a windfall to J.W.

22a
Appendix C
4.

HEARING

On January 26, 2015, the trial court, in particular
Judge Marquez, held a hearing on J.W.’s motion for
sanctions. The trial court said its tentative ruling was to
give Watchtower until January 30 to produce the 1997
Documents, and if the 1997 Documents were not produced,
then the court would consider striking Watchtower’s
answer. The trial court explained that it did not want
further argument about the relevance of the 1997
Documents because that issue had already been litigated.
The court explained that the 1997 Documents needed to
be produced by January 30.
Watchtower asserted that there was not a motion
to compel pending and therefore the trial court could
not order Watchtower to produce the 1997 Documents
by January 30. The trial court explained that it was
continuing the sanctions hearing to allow Watchtower time
to comply with the February 11, 2014, order. Watchtower
asserted that if the trial court was continuing the hearing,
then Watchtower would appear on January 30 to argue
the issue of sanctions. The trial court responded, “I see.
So you don’t want to—your intent is not to turn over or
produce the files that were ordered on February 11; is
that correct?”
Watchtower responded that it would argue the issue
of sanctions, in particular, it would explain how the 1997
Documents do not relate to the merits of J.W.’s case. The
trial court said, “So you want to argue the issue of the
relevancy that has already been litigated … before Judge

23a
Appendix C
Peters[o]n, which was then taken up to the District Court
of Appeal, and then to the Supreme Court? You’d like to
argue that once more in this court?” Watchtower explained
that sanctions should relate to the harm that J.W. would
suffer, and the withholding of the 1997 Documents would
not cause harm to the merits of J.W.’s case—the 1997
Documents could only be relevant to an anticipated claim
of punitive damages.
The trial court said, “Well, the Court’s tentative is
that it is going to grant the motion and will strike the
answer if the—the information that has been ordered
to be produced is not produced. [¶] The Court wanted to
give you one last opportunity to comply before exercising
that type of a sanction.” Watchtower argued it would
be inappropriate to strike its answer when the 1997
Documents only relate to punitive damages. The trial
court asked, “Have you not had that opportunity to argue
that before Judge Peters[o]n, before the DCA, and before
the Supreme Court?” Watchtower asserted those prior
arguments concerned the motion to compel, i.e., whether
the 1997 Documents needed to be produced, while the
current argument concerned potential harm to J.W. due
to Watchtower’s failure to produce the 1997 Documents.
The trial court asked, “So you’re arguing instead the
degree of the sanction? You’re agreeing that there is an
order[,] that it has not been complied with, but that the
sanction is improper?” Watchtower responded, “Correct.”
The trial court explained, “There was no briefing on the
issue of issue[s] sanctions. Watchtower is included as a
defendant on all six causes of action. And the issue of the

24a
Appendix C
[1997 Documents] clearly has been found to be relevant
to—to the issue of negligence, which would pertain to
the first, second, third, and fourth causes of action. [¶]
However, on the issue of the intentional torts and having
to do with sexual battery and intentional inf liction
of emotional distress, that’s where the Court has its
concerns, and that wasn’t briefed by either party. And so
I don’t know that the issue of the [1997 Documents] has
to do with [causes of action] five and six.”
Watchtower responded, “I would argue that it does
not pertain to the liability in [the] first phase of this trial
at all.” The trial court said, “That’s already been litigated,
and that has already been ordered to be produced.”
Watchtower argued the 1997 Documents would not be
introduced in the liability phase of trial because “these
documents have nothing to do with this victim and that
perpetrator.” The court said, “That argument has been
made throughout the litigation.” Watchtower asserted
any sanctions should only relate to the punitive damages
phase of the litigation.
J.W. said that if the trial court’s tentative ruling was
to grant terminating sanctions for the negligence causes of
action, then J.W. would dismiss her intentional tort causes
of action. Watchtower argued that if only the negligence
causes of action remained, then the 1997 Documents had
no relevance to the case, and there should be no sanctions.
J.W. asserted the 1997 Documents were relevant to the
negligence causes of actions. The trial court granted J.W.’s
motion to dismiss her two intentional tort causes of action.
The court took the issue of sanctions under submission.

25a
Appendix C
5.

RULING

On February 2, 2015, the trial court issued its ruling
on J.W.’s motion for terminating sanctions. The trial
court found Watchtower willfully violated the court’s
February 11, 2014, order by refusing to produce the 1997
Documents, which were relevant to J.W.’s four negligencebased causes of action. The trial court explained that
the 1997 Documents were relevant to the issue of duty,
in particular J.W.’s allegation that Watchtower failed to
reasonably investigate Simental and failed to warn J.W.
The trial court explained that Watchtower had exhausted
its appellate remedies concerning the February 11 order,
but still refused to produce the 1997 Documents.
The trial court wrote, “At the January 26, 2015
hearing … , the Court attempted to give Watchtower
another opportunity to produce these documents before
ruling on the motion. However, Watchtower rejected
this additional opportunity and refused to produce the
outstanding documents. Watchtower does not deny that
the documents at issue are responsive to the February 11,
2014 court order or that it has been ordered to produce
these documents. Based on Watchtower’s refusal to
produce these documents—despite looming terminating
sanctions that would strike Watchtower’s Answer—the
imposition of lesser sanctions (like monetary sanctions) is
insufficient to obtain compliance.” The trial court granted
J.W.’s motion for terminating sanctions and ordered
Watchtower’s answer be stricken.

26a
Appendix C
6.

Default

J.W. requested entry of Watchtower’s default. The
trial court clerk entered the default on March 23, 2015.
F. MOTION FOR RELIEF
1.

MOTION

On July 7, 2015, Watchtower filed a motion for
relief from the order granting terminating sanctions.
Watchtower asserted that, in February 2015 it was unable
to produce the 1997 Documents because running computer
searches for relevant documents caused the computer
system to crash. Watchtower contended that its inability
to comply with the court’s order entitled it to relief under a
theory of extrinsic mistake. Watchtower explained that, in
March 2015 it developed software that allowed searches to
be successfully conducted without the computer crashing.
Watchtower wrote that it “has a satisfactory excuse
for not presenting a defense previously; it did not know
how to electronically search for and identify the responsive
documents.” Watchtower contended it had a meritorious
defense to J.W.’s lawsuit, in that Watchtower bore no
responsibility for Simental, Watchtower had no knowledge
of a threat posed by Simental, and the molestation did not
occur at a congregation event.

27a
Appendix C
2.

OPPOSITION

J.W. opposed Watchtower’s motion for relief. J.W.
asserted that Watchtower failed to explain what mistake
it had made, so as to justify a motion for relief. (Code Civ.
Proc., § 473, subd. (b).) J.W. argued that if Watchtower
experienced technical difficulties in complying with the
trial court’s order, then it should have informed the court
of those difficulties when the trial court announced its
tentative ruling. Further, J.W. argued that Watchtower’s
motion was untimely because it was not brought in a
reasonable amount of time due to the software being
developed in March, and the motion being brought in July.
3.

RESPONSE

Watchtower responded to J.W.’s opposition. Watchtower
asserted its inability to produce the 1997 Documents was
an extrinsic mistake that caused it to be unable to comply
with the court’s order. Watchtower asserted that it would
have produced the 1997 Documents if it had been able to
do so, and it was producing the 1997 Documents in another
case. Watchtower explained that it did not inform the
court, in January 2015 of its technical difficulties because
it did not know that, in March 2015 it would successfully
develop a program to search the 1997 Documents.
Watchtower explained that because it did not know the
technical issues would be resolved, it chose to confine its
January arguments to the issue of the 1997 Documents
being irrelevant.

28a
Appendix C
4.

HEARING

On July 29 and August 5, the trial court, again Judge
Marquez, held hearings on Watchtower’s motion. The
trial court’s tentative ruling was to deny Watchtower’s
motion due to Watchtower lacking standing, due to being
in default. The trial court held a second hearing to permit
the parties to discuss a recently published Supreme Court
case.
Watchtower explained that while the software was
developed in March, portions of the 1997 Documents
were produced for the first time in May, in a San Diego
County case. The trial court asked why the computer
difficulties were not mentioned in January. Watchtower
explained that it would not have been able to comply with
the court’s order by January 30, so it did not argue the
computer issue.
J.W. argued that Watchtower was in default and
therefore lacked standing to move for relief from the
terminating sanctions. J.W. explained that Watchtower
needed to seek relief from the default in order to have
standing. Watchtower explained that it did not have
grounds to seek relief from the default.
The trial court explained that Watchtower’s motion
was, in substance, a motion for reconsideration of the
motion for terminating sanctions based upon new evidence.
The trial court explained that such a motion is required
to be brought within 10 days. Watchtower explained
that it was seeking equitable relief based upon extrinsic

29a
Appendix C
mistake. The trial court asked if Watchtower was making
a strategic decision to reopen the instant case due to the
1997 Documents having been disclosed in the San Diego
County case. Watchtower explained it returned to court
because its software was functioning properly.
The trial court concluded Watchtower lacked standing
to seek relief because it was in default. Further, the court
concluded Watchtower’s motion was an untimely motion
for reconsideration of the sanctions motion, and that
Watchtower did not argue new facts because the computer
problems were known to Watchtower in January 2015.
To the extent the motion was a motion for relief, the trial
court found Watchtower failed to prove mistake, surprise,
or excusable neglect because Watchtower knew of the
computer problems in May 2014 and thus could have raised
them in January 2015. The trial court concluded there was
not a satisfactory explanation for Watchtower’s failure to
raise the computer issue in January 2015.
In regard to equitable relief, the trial court found
Watchtower failed to prove extrinsic fraud or mistake
related to its failure to raise the computer issue in
January 2015. The trial court found Watchtower’s refusal
to comply with the court’s “February 11, 2014 order was
tactical and strategic in nature,” and constituted “willful
defiance of the Court[‘s] orders.” The court explained that
Watchtower’s motion for relief was brought only after
Watchtower produced the 1997 Documents in a San Diego
County case. The trial court denied Watchtower’s motion.

30a
Appendix C
G. DAMAGES
The trial court held a default prove-up hearing on the
issue of damages. The trial court considered exhibits that
were submitted. The trial court awarded J.W. $3 million
for pain and suffering; $1 million for future medical
expenses; and $16,152.39 for costs. The trial court entered
judgment in favor of J.W. in the amount of $4,016,152.39.
DISCUSSION
A. PROXIMATE CAUSE
Watchtower contends J.W. failed to allege proximate
cause in her FAC.
“On an appeal from a default judgment an objection
that the complaint failed to state facts sufficient to
constitute a cause of action may be considered.” (Gore v.
Witt (1957) 149 Cal.App.2d 681, 686 [308 P.2d 770].) We
apply the de novo standard of review when considering
whether a complaint alleges sufficient facts to state a cause
of action, such facts being assumed true for this purpose.
(Lee v. Hanley (2015) 61 Cal.4th 1225, 1230 [191 Cal. Rptr.
3d 536, 354 P.3d 334].)
Our Supreme Court has “recognized that proximate
cause has two aspects. ‘“One is cause in fact. An act is a
cause in fact if it is a necessary antecedent of an event.”’
[Citation.] This is sometimes referred to as ‘but-for’
causation.

31a
Appendix C
“The second aspect of proximate cause ‘focuses on
public policy considerations. Because the purported
[factual] causes of an event may be traced back to the dawn
of humanity, the law has imposed additional “limitations
on liability other than simple causality.” [Citation.] “These
additional limitations are related not only to the degree of
connection between the conduct and the injury, but also
with public policy.” [Citation.] Thus, “proximate cause ‘is
ordinarily concerned, not with the fact of causation, but
with the various considerations of policy that limit an
actor’s responsibility for the consequences of his conduct.’”
[Citation.]’ As Witkin puts it, ‘[t]he doctrine of proximate
cause limits liability; i.e., in certain situations where the
defendant’s conduct is an actual cause of the harm, the
defendant will nevertheless be absolved because of the
manner in which the injury occurred… . Rules of legal
cause … operate to relieve the defendant whose conduct is
a cause in fact of the injury, where it would be considered
unjust to hold him or her legally responsible.’ [Citation.]
“‘Ordinarily, proximate cause is a question of fact
which cannot be decided as a matter of law from the
allegations of a complaint… . Nevertheless, where the
facts are such that the only reasonable conclusion is an
absence of causation, the question is one of law, not of
fact.’” (State Dept. of State Hospitals v. Superior Court
(2015) 61 Cal.4th 339, 352–353 [188 Cal. Rptr. 3d 309, 349
P.3d 1013], italics & fn. omitted.)
We begin with the first factor—cause in fact. In
the FAC, J.W. alleged the Jehovah’s Witness Church is
hierarchical in nature: authority begins with Watchtower

32a
Appendix C
and flows down to the congregations. J.W. alleged that
Simental was an elder in a congregation prior to joining
the Mountain View congregation, and then upon joining
the Mountain View congregation he was made an elder
of that congregation. J.W. alleged, “Without the access to
[J.W.] created by [Simental’s] position with [Watchtower]
as a Baptized Publisher, Ministerial Servant and Elder,
[Simental] could not have sexually molested [J.W.]”
In the FAC, J.W. has alleged that it was Simental’s
position of authority within the church that created the
opportunity for him to molest her. A reasonable inference
from this allegation is that J.W. met Simental due to his
position within the church, and her parents felt J.W.
was safe in Simental’s care because he held a position of
authority in the church. Thus, Simental’s position as an
elder in the church was a necessary antecedent of the
molestation. (See Liberty Surplus Ins. Corp. v. Ledesma &
Meyer Construction Co. (2018) 5 Cal.5th 216, 225 [233 Cal.
Rptr. 3d 487, 418 P.3d 400] (Liberty) [employer’s “acts must
be considered the starting point of the series of events
leading to Doe’s molestation”].) J.W. sufficiently alleged
that Watchtower was responsible for Simental being in a
position of authority within the church by alleging that
Watchtower is the ultimate authority in the Jehovah’s
Witness Church.
We now turn to legal causation. In California, an
employer may be liable to a third party for negligently
hiring or retaining an unfit employee. (Evan F. v. Hughson
United Methodist Church (1992) 8 Cal.App.4th 828, 836 [10
Cal. Rptr. 2d 748].) Negligent hiring/retention is a theory

33a
Appendix C
of direct liability—not vicarious liability. In a negligent
hiring/retention cause of action, the neglect alleged is not
that of the employee. The neglect pleaded is that of the
employer itself. (Fernelius v. Pierce (1943) 22 Cal.2d 226,
233 [138 P.2d 12].)
An employer may be negligent because it has reason
to know the employee, because of his qualities, “‘“is likely
to harm others in view of the work or instrumentalities
entrusted to him. If the dangerous quality of the
[employee] causes harm, the [employer] may be liable
under the rule that one initiating conduct having an undue
tendency to cause harm is liable therefor. … [¶] … An
[employee] … may be incompetent because of his reckless
or vicious disposition, and if [an employer], without
exercising due care in selection, employs a vicious person
to do an act which necessarily brings him in contact with
others while in the performance of a duty, he is subject to
liability for harm caused by the vicious propensity. … [¶]
One who employs another to act for him is not liable …
merely because the one employed is incompetent, vicious,
or careless. If liability results it is because, under the
circumstances, the employer has not taken the care which
a prudent man would take in selecting the person for the
business in hand. … [¶] Liability results … not because
of the relation of the parties but because the employer
antecedently had reason to believe that an undue risk
of harm would exist because of the employment. …”’”
(Federico v. Superior Court (1997) 59 Cal.App.4th 1207,
1213–1214 [69 Cal. Rptr. 2d 370].)

34a
Appendix C
We examine whether J.W. sufficiently alleged that
Watchtower had reason to know of the threat of pedophilia
posed by Simental. J.W. alleged, “Watchtower … knew or
reasonably should have known of [Simental’s] dangerous
and exploitive propensities and/or that [Simental] was
an unfit agent. Despite such knowledge, [Watchtower]
negligently failed to supervise [Simental] in the position
of trust and authority as a Jehovah’s Witness … Elder,
religious instructor, counselor, surrogate parent … , where
he was able to commit the wrong acts against [J.W.]”
J.W. alleged that Watchtower knew of the threat of
pedophilia posed by Simental, yet Watchtower permitted
Simental to hold a position of authority that placed him
in the company of children. Because J.W. has alleged
that Watchtower had knowledge of the threat posed
by Simental, she has sufficiently pled facts from which
Watchtower could be held legally responsible for the
molestation. (See Mark K. v. Roman Catholic Archbishop
(1998) 67 Cal.App.4th 603, 611–612 [79 Cal. Rptr. 2d 73]
[the liability of a church may be found where the church
had reason to be suspicious of a priest’s propensity for
pedophilia].) In sum, J.W. has sufficiently pled proximate
cause.
Watchtower contends proximate cause was not
sufficiently pled because J.W. did not allege that the
slumber party was a church sponsored activity. Under a
theory of negligent hiring, an employer is held responsible
for its hiring decision. This is a theory of direct liability.
(Z.V. v. County of Riverside (2015) 238 Cal.App.4th 889,
902 [189 Cal. Rptr. 3d 570].) It differs from respondeat

35a
Appendix C
superior, which is a theory of vicarious liability. Under a
theory of respondeat superior, the employee must have
been acting within the scope of his employment at the
time of the wrongdoing, and then the employer is held
liable for the employee’s bad act.4 (Juarez v. Boy Scouts
of America, Inc. (2000) 81 Cal.App.4th 377, 393–394 [97
Cal. Rptr. 2d 12].)
Thus, under a negligent hiring/retention theory, the
issue is not whether the employee was acting within the
scope of his employment, but whether the employer acted
properly in hiring or retaining the employee. As a result,
a failure to plead that the party was a church sponsored
event does not mean causation could not be found by a trier
of fact. In a negligent hiring/retention analysis, the focus
is on Watchtower’s actions in hiring/retaining Simental,
i.e., the risk of molestation that Watchtower allegedly
knowingly created. Accordingly, we are not persuaded that
proximate cause was improperly pled due to a failure to
allege that the party was a church sponsored event. (See
e.g., Liberty, supra, 5 Cal.5th at p. 225 [“a finder of fact
could conclude that the causal connection between [the
employer’s] alleged negligence and the injury inflicted by
[the employee] was close enough to justify the imposition
of liability on [the employer]. … [The employer’s] acts must
be considered the starting point of the series of events
leading to Doe’s molestation”].)
4. “[W]e are not aware of any California decision that has held
a religious institution liable under the theory of respondeat superior
for the acts of institution personnel in molesting parishioners.” (Evan
F. v. Hughson United Methodist Church, supra, 8 Cal.App.4th at
p. 840, fn. 2.)

36a
Appendix C
Watchtower asserts this court would be contradicting
the Restatement of Agency by holding that J.W. adequately
pled proximate cause. The Restatement provides, “A
principal who conducts an activity through an agent is
subject to liability for harm to a third party caused by the
agent’s conduct if the harm was caused by the principal’s
negligence in selecting, training, retaining, supervising, or
otherwise controlling the agent.” (Rest.3d Agency, § 7.05.)
A comment in the Restatement explains, “[W]hen the
actor’s tort occurs in the course of an extramural activity
unrelated to the actor’s employment, the tort may lack a
sufficient causal relationship to the actor’s employment.”
(Rest.3d Agency, § 7.05, com. c, p. 180.)
The Restatement reflects causation may not be present
when the harm occurs outside the work environment. It
does not reflect that causation cannot be found when the
harm occurs outside the work environment. Because
causation may be found when the harm occurs outside
the work environment, we are not persuaded that our
conclusion—that J.W. adequately pled proximate cause—
contradicts the Restatement.
Watchtower asserts that our conclusion in this
case—that proximate cause was adequately pled in the
FAC—will open the litigation floodgates. As set forth ante,
proximate cause issues are typically questions of fact.
(State Dept. of State Hospitals v. Superior Court, supra,
61 Cal.4th at pp. 352–353.) Our conclusion is limited to
the facts pled in J.W.’s FAC. Whether proximate cause is
adequately pled in future cases will need to be decided on
a case-by-case basis. (See Liberty, supra, 5 Cal.5th at p.

37a
Appendix C
223 [“California cases expressly recogniz[e] that negligent
hiring, retention, or supervision may be a substantial
factor in a sexual molestation perpetrated by an employee,
depending on the facts presented”].) Accordingly, we are
not persuaded that our conclusion will open the litigation
floodgates.
Watchtower contends proximate cause was not
sufficiently pled because Watchtower relinquished control
over congregational affairs to the CCJW (Christian
Congregation of Jehovah’s Witnesses, Inc.). In J.W.’s
FAC, she alleged, “While supervised, directed and
controlled by Defendants Mountain View, French Valley,
Watchtower and CCJW, Gilbert Siment[a]l committed
the acts of childhood sexual abuse alleged herein.” Thus,
J.W.’s allegations reflect that Watchtower was responsible
for supervising Simental at the time of the molestation.
Watchtower contends proximate cause was not
sufficiently pled because J.W.’s allegation that Simental
was appointed and confirmed as an elder was alleged
on information and belief. Watchtower contends the
allegation is not well pled because J.W. failed to allege
facts supporting the basis for her belief that Simental
served as an elder.
When analyzing the sufficiency of a complaint, we
treat all properly pled facts as true. (Zelig v. County of
Los Angeles (2002) 27 Cal.4th 1112, 1126 [119 Cal. Rptr. 2d
709, 45 P.3d 1171].) A “[p]laintiff may allege on information
and belief any matters that are not within [her] personal
knowledge, if [s]he has information leading [her] to believe

38a
Appendix C
that the allegations are true.” (Pridonoff v. Balokovich
(1951) 36 Cal.2d 788, 792 [228 P.2d 6].)
J.W. alleged that she has belonged to Jehovah’s
Witness congregations from birth until after she was
molested. J.W. and Simental belonged to the Mountain
View congregation “and regularly attended Jehovah’s
Witness meetings sponsored by that congregation. [¶]
… [J.W.] and her parents attended the same meetings at
the same Kingdom Hall as [Simental] twice per week.”
It can reasonably be inferred from J.W.’s allegations that
her belief that Simental was an elder was based upon
her participation in the same congregation as Simental.
Accordingly, we are not persuaded that J.W. failed to
properly plead proximate cause against Watchtower.
B. DUE PROCESS
Watchtower contends the trial court violated
Watchtower’s right of due process by striking Watchtower’s
answer due to a failure to comply with the February 11,
2014, order because the February 11, 2014, order was not
in writing. 5
5. In general, a defendant’s default admits the truth of the
allegations in the plaintiff ’s complaint. (Steven M. Garber &
Associates v. Eskandarian (2007) 150 Cal.App.4th 813, 823 [59 Cal.
Rptr. 3d 1].) As a result, if “the defaulting party takes no steps in the
trial court to set aside the default judgment, appeal from the default
judgment presents for review only the questions of jurisdiction and
the sufficiency of the pleadings.” (Corona v. Lundigan (1984) 158
Cal.App.3d 764, 766–767 [204 Cal. Rptr. 846]; see Butenschoen v.
Flaker (2017) 16 Cal.App.5th Supp. 10, 13 [224 Cal. Rptr. 3d 679].)
However, an order granting terminating sanctions is not appealable,

39a
Appendix C
We apply the de novo standard of review. (Bostean v.
Los Angeles Unified School Dist. (1998) 63 Cal.App.4th 95,
107 [73 Cal. Rptr. 2d 523].) Due process requires adequate
notice be provided prior to the imposition of sanctions.
(Caldwell v. Samuels Jewelers (1990) 222 Cal.App.3d 970,
976 [272 Cal.Rptr. 126].) Watchtower is asserting the lack
of a written order compelling further discovery (on Feb.
11, 2014) led to confusion about the required discovery
and thus, Watchtower lacked notice of what was required
and therefore the terminating sanctions were improper.
The trial court’s February 11, 2014, minute order
reads, “Motion is granted and denied in part[.] Ruling
as stated on the record.” At the hearing on the motion
for terminating sanctions, Watchtower did not express
confusion regarding the February 11, 2014, order
compelling further discovery. At the sanctions hearing,
the trial court asked, “You’re agreeing that there is
an order[,] that it has not been complied with, but that
the sanction is improper?” Watchtower responded,
“Correct.” It appears from Watchtower’s response that it
understood the February 11, 2014, minute order because
Watchtower agreed there was an order and agreed it had
so the losing party must ordinarily await entry of a judgment of
dismissal to seek review. (Mileikowsky v. Tenet Healthsystem (2005)
128 Cal.App.4th 262, 264 [26 Cal. Rptr. 3d 831]; Code Civ. Proc.,
§ 904.1, subd. (b).)

Watchtower is appealing from a default judgment. However,
it did not have an opportunity to appeal from the order granting
terminating sanctions and striking its answer. Because the issue
raised is procedural, and this is Watchtower’s first opportunity
to raise the issue for appellate review, we will address the issue.

40a
Appendix C
not complied with the order—Watchtower did not argue
it was confused or that the February 11 minute order
should be interpreted in a different manner. Moreover,
in March 2014 Watchtower filed a motion to set aside the
trial court’s order compelling production in response to
RFP 66, which indicates Watchtower understood the court
ordered Watchtower to produce the 1997 Documents.
Accordingly, because Watchtower understood that it was
ordered to produce the 1997 Documents, we conclude its
right of due process was not violated.
Watchtower contends its right of due process was
violated because, on February 11, 2014, Judge Peterson
did not rule on Watchtower’s objections to RFP 66.
Watchtower’s objections were presented in J.W.’s
separate statement. The separate statement provided
that Watchtower objected to RFP 66 based upon (1) the
minister-communicant privilege; (2) invasion of privacy;
(3) the request not leading to admissible evidence; and
(4) the request being overbroad. Further, Watchtower
asserted that it did not have any documents predating
July 15, 2006, concerning Simental, which were sent in
response to the March 14, 1997, letter.
When Judge Peterson began the February 11 hearing,
he said in regard to all of Watchtower’s objections to all
of the requests for production, “[Watchtower] object[s]
on the following grounds: Number one, penitent/clergy
privilege, attorney/client privilege, attorney work product,
privacy, and in several instances, the time period which
would cover the documents sought to be received.”

41a
Appendix C
The court continued, “Turning to the issue of privacy,
[Watchtower] cite[s] no authority that there is a privacy
right in this case. However, even if there is one, disclosure
of information relating to sexual predators of children
outweighs any privacy. That comes from the clergy
cases. [¶] Objection to the time period. The defendants
want to stop discovery at the time of the slumber party,
however [J.W.’s] response overcomes this argument. [¶]
… [¶] As to the penitent/clergy privilege, first of all,
[J.W.] argues collateral estoppel. The Court does not
accept that argument … . [¶] … [Watchtower] herein
argue[s] that … just because the information is shared
by a congregation of elders should not take them out of
the privilege. However, the Roman Catholic Archbishop
of Los Angeles case clearly states and holds that when the
communication is shared, the privilege is waived. … The
court has also reviewed the attorney/client and attorney
work product issues.”
The trial court grouped all of the similar objections
together for the various requests for production, but
the trial court did address the different objections. The
trial court’s comments reflect it read the objections,
the responses, and the law relevant to the objections.
Accordingly, we are not persuaded that the trial court
failed to rule on Watchtower’s objections.

42a
Appendix C
Watchtower contends Judge Peterson’s ruling
on February 11, 2014, only pertained to Request for
Production No. 2—he did not rule upon RFP 66. At the
end of the February 11 hearing, J.W.’s attorney said,
“There were a number of requests that were separate
and apart from the identified documents that we were
discussing… . For instance, [J.W.] sought the production
of various iterations of the Jehovah’s Witness Handbook to
be produced as well as several letters.” Counsel continued,
“So there’s been no ruling with respect to those. And the
ones that are significant would be the elder handbooks.”
The trial court responded, “Well, excuse me, [counsel].
[¶] My ruling as to the objections and stating that all
remaining items—the request for all remaining items is
granted, would that not include all those documents, the
books?”
Counsel said, “So the ruling said that all the materials
that were not specified as being privileged are to be
produced.” The trial court replied, “Certainly, and I
apologize if I wasn’t clear.” The trial court’s comments
reflect that it considered the objections to all of the items
and that its ruling was meant to apply to all of J.W.’s
requests for production—it was not limited to request for
production No. 2. Accordingly, we conclude the trial court
did not violate Watchtower’s right of due process.
C. TERMINATING SANCTIONS
Watchtower contends the trial court erred by
imposing terminating sanctions because it was too severe
of a sanction.

43a
Appendix C
“California discovery law authorizes a range of
penalties for a party’s refusal to obey a discovery order,
including monetary sanctions, evidentiary sanctions, issue
sanctions, and terminating sanctions. [Citations.] A court
has broad discretion in selecting the appropriate penalty,
and we must uphold the court’s determination absent an
abuse of discretion. [Citation.] We defer to the court’s
credibility decisions and draw all reasonable inferences
in support of the court’s ruling.
“Despite this broad discretion, the courts have long
recognized that the terminating sanction is a drastic
penalty and should be used sparingly. [Citation.] A trial
court must be cautious when imposing a terminating
sanction because the sanction eliminates a party’s
fundamental right to a trial, thus implicating due process
rights. [Citation.] The trial court should select a sanction
that is ‘“‘tailor[ed] … to the harm caused by the withheld
discovery.’”’ [Citation.] ‘“[S]anctions ‘should be appropriate
to the dereliction, and should not exceed that which is
required to protect the interests of the party entitled to
but denied discovery.’”’ …
“The discovery statutes thus ‘evince an incremental
approach to discovery sanctions, starting with monetary
sanctions and ending with the ultimate sanction of
termination.’ [Citation.] Although in extreme cases a
court has the authority to order a terminating sanction
as a first measure [citation], a terminating sanction should
generally not be imposed until the court has attempted
less severe alternatives and found them to be unsuccessful
and/or the record clearly shows lesser sanctions would be

44a
Appendix C
ineffective.” (Lopez v. Watchtower Bible & Tract Society
of New York, Inc. (2016) 246 Cal.App.4th 566, 604 [201
Cal. Rptr. 3d 156].)
Watchtower contends the trial court should have
imposed an issue sanction concerning the element of duty.
In particular, Watchtower asserts the trial court should
have sanctioned Watchtower by forbidding Watchtower
from arguing it did not owe a duty to J.W. Watchtower did
not raise this duty-focused argument in the trial court.
At the hearing on J.W.’s request for terminating
sanctions, Watchtower argued that the withholding of
the 1997 Documents would not cause harm to the merits
of J.W.’s case in the liability phase of trial; Watchtower
asserted the 1997 Documents could only be relevant to
an anticipated claim of punitive damages. Watchtower
asserted any sanctions should only relate to the punitive
damages phase of the litigation. Meanwhile, J.W. asserted
the 1997 Documents could be relevant to duty, breach, and
an anticipated claim of punitive damages. J.W. requested
terminating sanctions.
We cannot conclude the trial court abused its
discretion by failing to enter an order that was never
suggested. (See Colony Ins. Co. v. Crusader Ins. Co.
(2010) 188 Cal.App.4th 743, 750–751 [115 Cal. Rptr. 3d
611] [argument is forfeited due to failure to raise it in the
trial court].) Neither Watchtower nor J.W. argued for an
issue sanction on the element of duty. Therefore, the trial
court did not abuse its discretion by not ordering a dutyfocused issue sanction.

45a
Appendix C
Watchtower contends that when J.W. dismissed her
intentional tort causes of action, the trial court should
have used that opportunity to consider imposing lesser
sanctions. When J.W. offered to dismiss her intentional
tort causes of action for the sake of obtaining terminating
sanctions on her negligence-based causes of action,
Watchtower argued that if only the negligence causes of
action were to remain, then the 1997 Documents had no
relevance to the case, and there should be no sanctions.
Because Watchtower did not seek lesser sanctions when
the intentional torts were dismissed, we cannot fault the
trial court for failing to order such lesser sanctions. (See
Colony Ins. Co. v. Crusader Ins. Co., supra, 188 Cal.
App.4th at pp. 750–751 [argument is forfeited due to failure
to raise it in the trial court].)
Watchtower contends the trial court erred in its finding
that lesser sanctions would be ineffective. In its written
ruling, the trial court wrote, “Based on Watchtower’s
refusal to produce these documents—despite looming
terminating sanctions that would strike Watchtower’s
Answer—the imposition of lesser sanctions (like monetary
sanctions) is insufficient to obtain compliance.” The trial
court said its tentative opinion was to grant terminating
sanctions, but it gave Watchtower four days to start
producing the 1997 Documents. Watchtower did not
produce the 1997 Documents. Given that the prospect of
terminating sanctions did not motivate Watchtower to
comply with the court’s discovery order, it is logical to
conclude that lesser sanctions would have been ineffective
in motivating Watchtower to comply. Accordingly, we
conclude the trial court’s reasoning is sound.

46a
Appendix C
Watchtower contends the trial court’s reasoning is
erroneous because “a responding party facing terminating
sanctions would always forfeit consideration of a lesser
sanction by the mere fact that it has not complied.” This
case does not present the situation that Watchtower
seems to describe in which a party does not comply and
terminating sanctions are immediately ordered. The key
here is the court’s warning that terminating sanctions
would likely be granted, and the multiday opportunity
for Watchtower to comply once notified of that possibility.
The trial court gave Watchtower notice that it would
likely grant terminating sanctions after a four-day
period if Watchtower did not start producing the 1997
Documents, and Watchtower, despite that warning, did
not comply with the court’s nearly year-old discovery
order. Thus, with that particular procedural history, it
was reasonable to conclude that lesser sanctions would
be ineffective in motivating Watchtower to comply with
the court’s discovery order. (See Mileikowsky v. Tenet
Healthsystem, supra, 128 Cal.App.4th at pp. 279–280
[“where a violation is willful, preceded by a history of
abuse, and the evidence shows that less severe sanctions
would not produce compliance with the discovery rules, the
trial court is justified in imposing the ultimate sanction”].)
D. MOTION FOR RECONSIDERATION
Watchtower contends the trial court erred by denying
Watchtower’s motion to set aside the order granting
terminating sanctions.

47a
Appendix C
Code of Civil Procedure section 1008 governs
motions for reconsideration of prior orders. It provides
that “any party affected by the order may, within 10
days after service upon the party of written notice of
entry of the order and based upon new or different facts,
circumstances, or law, make application to the same judge
or court that made the order, to reconsider the matter
and modify, amend, or revoke the prior order.” (Code
Civ. Proc., § 1008, subd. (a).) “The name of a motion is not
controlling, and, regardless of the name, a motion asking
the trial court to decide the same matter previously ruled
on is a motion for reconsideration under Code of Civil
Procedure section 1008.” (Powell v. County of Orange
(2011) 197 Cal.App.4th 1573, 1577 [129 Cal. Rptr. 3d 380].)
The trial court granted terminating sanctions on
February 2, 2015. Watchtower moved for relief on July 7.
In the motion, Watchtower argued that the order granting
terminating sanctions should be reconsidered because
Watchtower gained the technical ability to comply with
the trial court’s discovery order. Watchtower’s motion, in
substance, was a motion for reconsideration based upon
new circumstances. The new circumstances consisted of
Watchtower’s newly acquired ability to search the 1997
Documents. Therefore, the motion had to be brought
within 10 days of February 2. Watchtower’s motion was
not brought within 10 days of February 2, and therefore
was untimely. As a result, the trial court did not err by
denying Watchtower’s motion.
Watchtower contends the trial court erred by
concluding Watchtower lacked standing to bring the

48a
Appendix C
motion for reconsideration, due to Watchtower being in
default. This court reviews the trial court’s ruling, not
its reasoning. (Border Business Park, Inc. v. City of San
Diego (2006) 142 Cal.App.4th 1538, 1561 [49 Cal. Rptr. 3d
259].) As set forth ante, the trial court could properly deny
Watchtower’s motion due to it being untimely. Therefore,
the trial court did not err.
Watchtower contends the trial court should have
construed its motion as a motion for equitable relief from
default. At the hearing on Watchtower’s motion, the
trial court asked, “[A]m I correct, that there has never
been a motion to set aside the default?” Watchtower
responded, “There has not been, your Honor. Because
we didn’t—we didn’t have the grounds.” Watchtower
did not inform the trial court that it wanted its motion
to be construed as a motion for relief from default. As a
result, we cannot fault the trial court for not treating the
motion for reconsideration of the terminating sanctions
as a motion for relief from the default. (See Colony Ins.
Co. v. Crusader Ins. Co., supra, 188 Cal.App.4th at pp.
750–751 [argument is forfeited due to failure to raise it
in the trial court].)
Watchtower contends its motion was based in equity
and should have been granted due to Watchtower’s
excusable neglect. “‘Excusable neglect’ is generally
defined as an error ‘“‘a reasonably prudent person under
the same or similar circumstances might have made.’”’”
(Ambrose v. Michelin North America, Inc. (2005) 134 Cal.
App.4th 1350, 1354 [37 Cal. Rptr. 3d 1], italics omitted.)

49a
Appendix C
In Watchtower’s motion, it explains that terminating
sanctions were granted on February 2, 2015, and, at the end
of March 2015 Watchtower developed the ability to search
the 1997 Documents. Watchtower continued, “Accordingly,
being now able to produce the documents ordered by this
Court, Watchtower is offering to do so on a rolling basis
as it is doing in [a San Diego County case].” Watchtower
has not explained a mistake or error that occurred prior to
February 2. Rather, Watchtower has set forth a change in
circumstance. The new circumstance is that Watchtower
gained the ability to search the 1997 Documents. A change
in circumstance does not equate with a mistake or error.
Accordingly, to the extent Watchtower’s motion could be
construed as seeking equitable relief, the trial court did
not abuse its discretion in denying the motion because
excusable neglect was not shown. In sum, the trial court
did not err.
E. REQUESTS FOR JUDICIAL NOTICE
J.W. requests we take judicial notice of various
documents. Watchtower opposes the request. First, J.W.
requests we take judicial notice of an appellant’s opening
brief received by the California Court of Appeal, Fourth
District, Division One in Padron v. Watchtower Bible &
Tract Society of New York, Inc. (2017) 16 Cal.App.5th 1246
[225 Cal.Rptr.3d 81]. The brief is marked as received by
the appellate court; it is not marked as filed. J.W.’s counsel
declares the brief is a true and correct copy of the brief
filed by the court. The brief filed by the court would bear
a file stamp, unlike the brief provided in this request that
is marked as received by the court. Accordingly, it does

50a
Appendix C
not appear to be a conformed copy. (Wolf v. CDS Devco
(2010) 185 Cal.App.4th 903, 914–915 [110 Cal. Rptr. 3d
850] [requesting party bears the burden of providing a
conformed copy or explaining why a conformed copy is
unavailable].) Because the brief is not marked as filed by
the court, we deny J.W.’s request that we take judicial
notice of the brief. (Ibid.; Evid. Code, § 452, subd. (d).)
Second, J.W. requests we take judicial notice of a
discovery referee’s recommendation in Padron v. Doe 1
(Super. Ct. San Diego, 2018, No. 37-2013-00067529-CUPO-CTL). The document does not bear a stamp reflecting
it was filed by the court. J.W.’s counsel declares the brief is
a true and correct copy of the brief filed by the court. The
document filed by the court would bear a file stamp, which
this document does not. Therefore, it does not appear
to be a conformed copy. (Wolf v. CDS Devco, supra, 185
Cal.App.4th at pp. 914–915 [requesting party bears the
burden of providing a conformed copy or explaining why
a conformed copy is unavailable].) Accordingly, we deny
J.W.’s request that we take judicial notice of the referee’s
recommendations. (Ibid.; Evid. Code, § 452, subd. (d).)
Third, J.W. requests we take judicial notice of
two minute orders from Padron v. Doe 1, supra, No.
37-2013-00067529-CU-PO-CTL, and two minute orders
from Lopez v. Doe 1 Linda Vista Church (Super. Ct. San
Diego, 2018, No. 37-2012-00099849-CU-PO-CTL). We
grant the request. (Evid. Code, §§ 452, subd. (d), 453.)
Watchtower contends the minute orders are irrelevant
and therefore the request should be denied. We have not

51a
Appendix C
relied on the minute orders in our opinion, and we do not
find the minute orders to be helpful in this case because, as
Watchtower notes, the minute orders were not before the
trial court in the instant case. (People v. Preslie (1977) 70
Cal.App.3d 486, 493 [138 Cal. Rptr. 828] [denying judicial
notice of documents not presented to the trial court].)
However, J.W. relies upon the minute orders in making
her argument to this court. For example, J.W. argues,
“Watchtower is a repeat offender who has consistently
flouted court orders to produce documents regarding its
knowledge of child molestation … in multiple pending
cases besides this case.” Because the minute orders are
relevant to J.W.’s argument, we conclude they have some
relevance.
DISPOSITION
The judgment is affirmed. Respondent is awarded
her costs on appeal. (Cal. Rules of Court, rule 8.278(a)(1).)
MILLER		
We concur:
MCKINSTER
Acting P.J.
FIELDS		

J.

J.

52a
Appendix
D
APPENDIX D — TRIAL
COURT
JUDGMENT
IN THE SUPERIOR COURT OF CALIFORNIA,
COUNTY OF RIVERSIDE, FILED JULY 15, 2016
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF RIVERSIDE
MCC1300850
JW, INDIVIDUALLY, BY AND
THROUGH HER GUARDIAN,
Plaintiff,
v.
MOUNTAIN VIEW
CONGREGATION, et al.,
Defendant.
December 21, 2015, Dated
July 15, 2016, Filed
JUDGMENT
1.  BY DEFAULT
a.

Defendant was properly served with a copy of the
summons and complaint.

b.

Defendant failed to answer the complaint or
appear and defend the action within the time
allowed by law.

53a
Appendix D
c.

Defendant’s default was entered by the clerk upon
plaintiff’s application.

d.

 Clerk’s Judgment (Code Civ. Proc., § 585(a)).
Defendant was sued only on a contract or
judgment of a court of this state for the
recovery of money.

e.

 Court Judgment (Code Civ. Proc., § 585(b)).
The court considered
(1)  pl a i nt i f f ’s t e st i mony a nd ot her
evidence.
(2)  plaintiff’s written declaration (Code
Civ. Proc., § 585(d)).
***

5. Parties. Judgment is
 for plaintiff (name each):
JW, Individually, by and through her
Guardian Ad Litem, T.W.
		 and against defendant (names):
Watchtower Bible and Tract Society of New
York, Inc.
a.

***
6. Amount.
a.

 Defendant named in item 5a above must pay
plaintiff on the complaint:

54a
Appendix D
(1)  Damages

$4,000,000.00

(2)  Prejudgment
interest at the
annual rate of

$
%

(3)  Attorney fees

$

(4)  Costs

$16,152.39

(5)  Other (specify):

$

(6)

TOTAL

$4,016,152.39

***
Date: July 15, 2016
/s/				
JuDIcIal offIcer

RAQUEL A. MARQUEZ

55a
Appendix EOF THE SUPERIOR
APPENDIX E — JUDGMENT
COURT OF CALIFORNIA, COUNTY OF
RIVERSIDE, DATED FEBRUARY 2, 2015
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF RIVERSIDE SUPERIOR COURT
OF CALIFORNIA
Minute Order/Judgment
CASE NO. 1300850 DATE: 02/02/15 DEPT: S303
CA SE NA M E: J W V S MOU N TA I N V I E W
CONGREGATION OF JEHOVAH’S
CASE CATEGORY: Negligence
HEARING: Hearing Re: Ruling on matter submitted
01/26/2015.
Honorable Judge Raquel A Marquez, Presiding
Clerk: A. Behrmann
Court Reporter: None
No appearance by either party.
Court subsequently rules on matter taken under
submission on 01/26/15.
Motion for terminating sanctions against Watchtower is
granted.
A n s w e r t o 1 s t A m e n d e d C o mp l a i nt o f W by
WATCHTOWER BIBLE AND TRACT SOCIETY OF
NEW YORK INC ordered stricken

56a
Appendix E
After taking under submission Plaintiff JW’s Motion for
Sanctions as to Watchtower Bible and Tract Society of
New York, Inc. (“Watchtower”), the court grants JW’s
request for terminating sanctions as to Watchtower.
Watchtower has willfully violated the Court’s February
11, 2014 order, by refusing to produce documents that
are relevant to Plaintiff’s first four causes of action for
negligence (the only causes of action asserted against
Watchtower). (C.C.P. 2031.310(i); Biles v. Exxon Mobil
Corp (2004) 124 Cal.App.4th 1315, 1327.) While disputed by
Watchtower, the reports at issue (which relate to known
molesters within the organization) pertain to the issue of
duty regarding Plaintiff’s claim that Watchtower failed to
reasonably investigate Plaintiff.’ perpetrator and failed to
warn, train and educate (FAC 55, 59, 63 and 66) (Juarez
v. Boy Scouts of America, Inc. (2000) 81 Cal.App.4th 377,
397-404.)
Watchtower has exercised its right to file a Petition for
Writ of Mandate regarding the February 11, 2014 order,
which was denied by the District Court of Appeals on
August 1, 2014. It has also filed a Petition for Review
with the California Supreme Court, which was denied
on September 24, 2014. Watchtower has exhausted its
remedies regarding the February 11, 2014 order, but still
refuses to produce.
At the January 26, 2015 hearing for Plaintiff’s Motion
for Sanctions, the Court attempted to give Watchtower
another opportunity to produce these documents before
ruling on the motion. However, Watchtower rejected
this additional opportunity and refused to produce the

57a
Appendix E
outstanding documents. Watchtower does not deny that
the documents at issue are responsive to the February 11,
2014 court order or that it has been ordered to produce
these documents. Based on Watchtower’s refusal to
produce these documents - despite looming terminating
sanctions that would strike Watchtower’s Answer - the
imposition of lesser sanctions (like monetary sanctions)
is insufficient to obtain compliance.
Notice of ruling to be prepared, served and submitted by
prevailing party.
Notice to be given by Clerk
Print Minute Order

58a
Appendix
F THE CHRISTIAN
APPENDIX F — LETTER
FROM
CONGREGATION OF JEHOVAH’S WITNESSES
CHRISTIAN CONGREGATION
OF JEHOVAH’S WITNESSES
2821 Route 22, Patterson, NY 12563-2237
Phone: (845) 306-1100
SDR:SSF December 30, 2003
(Effective: February 1, 2004)

MOUNTAIN VIEW CONGREGATION OF
JEHOVAH’S WITNESSES, MURRIETA, CA 904201
C/O JOHN VAUGHN
26886 VALENSOLE CT
MURRIETA CA 92562-4527
Dear Brothers:
This is to advise that the recommendation for
appointment(s) of the following brother(s) has been
approved under the direction of the Governing Body and
holy spirit. This is being conveyed as shown by the official
stamp and date of approval.
ELDER(S)
George Bennett
Rick Bodnar
Phil Castro
Michael Cowan

MINISTERIAL SERVANT(S)
Ryan Bennett
Tom Hargrove
Larry Larsen
Richard Vanderham

59a
Appendix F
Gilbert Simental
Andrew Sinay
Thomas Taylor
John Vaughn
Daniel Winder
Ser v i ng w ith you under
the appointed Head of the
congregation, Jesus Christ,
Christian Congregation of
Jehovah’s Witnesses
P.S. To body of elders: Please have two elders speak
to any brother recommended for appointment whose name
appears above. Ask if there is any reason why his name
should not be announced. If so, do not announce it, but
return this form and explain why he cannot serve. Each
one appointed should be sure that he is well acquainted
with what the Bible says about his responsibilites in the
congregation. In all that he does, he should look to God’s
Word for guidance and should cooperate closely with the
faithful and discreet slave class, through whom the Lord
is providing direction for his congregation.
Whenever an elder or a ministerial servant is deleted,
please make the following announcement, whatever
the reason for the deletion: “			 i s n o
longer serving as an elder (ministerial servant).” If an
elder is deleted for reasons other than moving to another
congregation with a favorable recommendation, he should

60a
Appendix F
turn over his Kingdom Ministry School textbook to the
Congregation Service Committee.
DELETION(S)

